<html>
<title> - DEPARTMENTS OF TRANSPORTATION, TREASURY, THE JUDICIARY, HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  DEPARTMENTS OF TRANSPORTATION, TREASURY, THE JUDICIARY, HOUSING AND 
URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

                              ----------                              


                        TUESDAY, MARCH 15, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Christopher S. Bond (chairman) 
presiding.
    Present: Senators Bond, Bennett, Cochran, Stevens, 
Domenici, Burns, Murray, Byrd, and Dorgan.

                      DEPARTMENT OF TRANSPORTATION

                        Office of the Secretary

STATEMENT OF HON. NORMAN Y. MINETA, SECRETARY
ACCOMPANIED BY:
        JEFFREY A. ROSEN, GENERAL COUNSEL
        PHYLLIS SCHEINBERG, ACTING ASSISTANT SECRETARY, BUDGET AND 
            PROGRAMS, AND CHIEF FINANCIAL OFFICER


            opening statement of senator christopher s. bond


    Senator Bond. Good morning and welcome. The Subcommittee on 
Transportation, Treasury, the Judiciary, HUD, and Related 
Agencies, now commonly known as ``THUD,'' will come to order.
    This is the first hearing of the newly reconstituted 
appropriations subcommittee. It is quite a mouthful and, in 
many ways, it is just as diverse and complex as the VA/HUD 
Appropriations Subcommittee that I most recently chaired before 
the Appropriations Committee was restructured.
    But I acknowledge and welcome my new ranking member, 
Senator Murray. I think everyone knows of my high regard and 
close working relationship I had with Senator Mikulski, with 
whom I exchanged the gavel on VA/HUD Appropriations. Senator 
Mikulski is a close friend, and because of my high regard and 
friendship, we were able to forge an excellent bipartisan 
working relationship. Things change in life and time marches 
on. We take on new responsibilities and challenges. Certainly 
there is no lack of challenges in this restructured 
appropriations subcommittee. I look forward to developing a 
relationship and strong friendship with my new ranking member, 
Senator Murray.
    This is going to be a demanding subcommittee with diverse 
and divisive issues. I know we are both pragmatists. We are 
here to do a job and that job is to pass an appropriations 
bill. I know we will get that done.
    We welcome Transportation Secretary Norm Mineta, appearing 
before us today to testify on the administration's budget 
request for the Department of Transportation for fiscal year 
2006. We are old friends, and for the last several years, we 
have been working together with others from my perch as 
chairman of the Senate Subcommittee on Transportation and 
Infrastructure of EPW on reaching a consensus on highway 
spending. I am disappointed that reaching a consensus on 
highway spending has proved to be so elusive and that passage 
of the highway authorization bill has been delayed for 3 years 
primarily due to disagreements over funding levels.
    To be clear, I am an infrastructure Republican who supports 
funding for highways and transportation. Our Nation's network 
of roads keeps communities and families connected to one 
another and serves as the primary system for moving goods and 
products that are the lifeblood of our economy, and a good 
transportation system is necessary to reduce the fatalities we 
have in transportation in too many areas.
    I also take great pride in the national highway system that 
began with Highway 70 in St. Charles, Missouri in 1956. Our 
highway system soon will reach its 50th anniversary, which only 
underscores the need for more than a facelift as we move 
further into the 21st century. There are new demands created by 
a global marketplace that require we move our goods and 
products more quickly and more efficiently. For the United 
States to compete, we have to make the necessary investments in 
our highways, waterways, and airways.
    Beyond the necessary movement of goods, investing in 
transportation also benefits jobs and stimulates the economy. 
The Department of Transportation has estimated that every $1 
billion of new Federal investment creates more than 47,500 
jobs. Moreover, according to the Associated General 
Contractors, failure to enact a 6-year transportation bill 
could result in the loss of some 90,000 jobs.
    To that end, I am pleased to see that the budget request 
adjusts the total spending level for the 6-year transportation 
authorization bill to $284 billion. The willingness to increase 
the funding level for the reauthorization bill by $28 billion 
is a step in the right direction. Nevertheless, this 
accommodation on the part of the administration, in my view, 
still falls short of the investment that is needed to maintain 
and repair our Nation's crumbling infrastructure, much less to 
construct the new roads to reduce time spent in traffic and 
make needed safety improvements in rural and urban roadways.
    Secretary Mineta, as you know, I speak from the twin pulpit 
of both the primary Senate transportation authorizing and 
appropriations subcommittees in seeking your support and 
commitment to reach an accord with adequate funding for a 6-
year highway bill. I expect this bill to complement our efforts 
and funding decisions on this subcommittee.
    Consequently, I am disappointed the administration is 
proposing some $59.5 billion in new budgetary resources for DOT 
which is a decrease of $2.1 billion or 4 percent from the 
enacted level of the current year. While I respect and support 
the efforts of the administration to reduce the deficit, I do 
not believe it appropriate to balance the Federal books on the 
back of critical transportation infrastructure programs.
    For example, the Airport Improvement Program is slated for 
one of the largest reductions in the entire fiscal year 2006 
budget, despite the proven track record that enhances airport 
safety, capacity, and security. After the program received high 
marks in the OMB PART process, I am at a loss to understand why 
this program remains in the sights of the budget gnomes.
    This is not to say that transportation spending should 
automatically be spared from the budget axe, but I do believe 
we must continue to increase the Nation's investment in 
transportation, especially highways and roads. To be blunt, 
this investment means a strong economy, safety, especially for 
the youth of our Nation, increased employment, decreased 
congestion, and enhanced security.
    In particular, the Department of Transportation's 
Conditions and Performance Report estimates that Federal 
investment in roads must increase by 17 percent per year simply 
to maintain our Nation's existing highway and bridge system. 
Improving the system would require some 65 percent more than 
currently invested. I think our own eyes and experiences speak 
directly to this issue. We live in one of the most affluent and 
economically prosperous areas of the country and every day we 
are confounded by unflagging traffic congestion, often during 
non-rush hour time, as well as unavoidable and significant 
potholes and other road damage, which is often covered with 
steel plates, if we are lucky. Our bridges are often down to 
one lane. Unfortunately, we have little in the way of options 
to avoid either the congestion or other road problems. It has 
gotten worse over the last few years and will likely continue 
to worsen without substantial investment.
    More troubling, some 43,000 people are killed on our roads 
and highways each year. In Missouri alone, traffic fatalities 
have increased from 1,098 in 2001 to 1,123 in 2004. We cannot 
eliminate all traffic fatalities, but we must make our highways 
and roads safer, and we can only do that through investment.
    Finally, I am very concerned about the reductions 
throughout DOT's fiscal year 2006 budget request. For example, 
regardless of my position, elimination of funding for Amtrak 
seems politically unlikely, not practical. However, assuming 
the adoption of real reforms, I do not see where the needed 
funds can come from without putting some other program or 
priority at risk.
    I am thankful that the administration has included $146 
million to support the Federal Railway Administration's rail 
safety activities, an increase of $8 million over the fiscal 
year 2005 level. While helpful, this increase seems to 
underestimate the real needs. In the last 9 weeks alone, there 
have been more railway accidents than at any time since FRA 
began tracking the data.


           PREPARED STATEMENT OF SENATOR CHRISTOPHER S. BOND


    I have much to learn about the funding needs of DOT, but I 
have a pretty good guess right now. I will have questions for 
today, for the record and in the future. Mr. Secretary, I look 
forward to your testimony today and to our future dialogues.
    It is now my pleasure to turn to my new ranking member, 
Senator Murray.
    [The statement follows:]

           Prepared Statement of Senator Christopher S. Bond

    The subcommittee will come to order. This is the first hearing of 
the newly reconstituted Senate Appropriations Subcommittee on 
Transportation, Treasury, the Judiciary, HUD, and Related Agencies. It 
is quite a mouthful and is, in many ways, just as diverse and complex a 
subcommittee as the VA-HUD Appropriations Subcommittee that I most 
recently chaired.
    First, I want to acknowledge and welcome my new Ranking Member, 
Senator Murray. I think everyone knows of my high regard for Senator 
Mikulski, with whom I exchanged the gavel at the VA-HUD Appropriations 
Subcommittee. I consider Senator Mikulski a close friend and because of 
my high regard and friendship we were able to forge an excellent, 
bipartisan working relationship. However, as with all things in life, 
time marches on and we take on new responsibilities and challenges. I 
look forward to the new responsibilities and challenges of this 
restructured appropriations subcommittee. I also look forward to 
developing a new relationship and hopefully a strong friendship with my 
new Ranking Member, Senator Murray. This will be a demanding 
subcommittee with many diverse and likely divisive issues. However, I 
know we are both pragmatists; we are here to do a job and that job is 
to pass an appropriations bill and I know we will get this job done.
    I welcome Transportation Secretary Norman Mineta for appearing 
before us today to testify on the administration's Budget Request for 
the Department of Transportation (DOT) for fiscal year 2006. We are old 
friends and, for the last several years, we have been working together 
with others from my perch as Chairman of the Senate Subcommittee on 
Transportation and Infrastructure of the EPW Committee on reaching a 
consensus on highway spending. I am disappointed that reaching a 
consensus on highway spending has proven to be so elusive and that 
passage of the highway authorization bill has been delayed for 3 years 
primarily due to disagreements over funding levels.
    To be clear, I am an infrastructure Republican who supports funding 
for our highways. Our Nation's network of roads keeps communities and 
families connected to one another and serves as the primary system for 
moving goods and products that are the lifeblood of our economy. I also 
take great pride that our national highway system was born in St. 
Charles, Missouri in 1956. Our highway system will soon reach its 50th 
anniversary, which only underscores the need for more than a facelift 
as we move further into the 21st century--there are new demands created 
by a global marketplace that requires that we move our goods and 
products quicker and more efficiently. For the United States to 
compete, we must make the necessary investments in our highways, 
waterways and airways.
    Beyond the necessary movement of goods, investing in transportation 
also benefits the creation of new jobs and stimulates the economy. DOT 
estimates that every $1 billion of new Federal investment creates more 
than 47,500 jobs. Moreover, according to the Associated General 
Contractors, failure to enact a 6-year transportation bill will result 
in the loss of some 90,000 jobs.
    To that end, I am pleased to see that the budget request adjusts 
the total spending level for the 6-year surface transportation 
authorization bill to $284 billion. The willingness to increase the 
funding level for the reauthorization bill by $28 billion is a step in 
the right direction. Nevertheless, this accommodation on the part of 
the administration falls far short of the investment that is needed to 
maintain and repair our Nation's crumbling infrastructure, much less 
construct new roads to reduce the time spent in traffic and make much 
needed safety improvements in rural and urban roadways.
    Secretary Mineta, I speak from the twin pulpit of both the primary 
Senate transportation authorizing and appropriations subcommittees in 
seeking your support and commitment to reach an accord with adequate 
funding for a 6-year highway bill. I expect this bill to complement our 
efforts and funding decisions on this subcommittee.
    Consequently, I am disappointed that the administration is 
proposing some $59.5 billion in new budgetary resources for DOT which 
is a decrease of $2.1 billion or 4 percent from the enacted level. 
While I respect and support the efforts of the administration to reduce 
the deficit, I do not believe that it is appropriate to balance the 
Federal books on the back of critical transportation infrastructure 
programs. For example, the Airport Improvement Program is slated for 
one of the largest reductions in the entire fiscal year 2006 budget 
request, despite a proven track record that enhances airport safety, 
capacity, and security. After the program received high marks in the 
OMB PART process, I am at a loss to understand why this program remains 
in the sights of the budget gnomes.
    This is not to say that transportation spending should 
automatically be spared from the budget axe, but I do believe that we 
must continue to increase the Nation's investment in transportation, 
especially highways and roads. To be blunt, this investment means a 
strong economy, safety for families, especially the youth of the 
Nation, increased employment, decreased congestion and enhanced 
security.
    In particular, the Department of Transportation's Conditions and 
Performance report estimates that Federal investment in roads must 
increase by 17 percent per year simply to maintain our Nation's 
existing highway and bridge system. Improving the system will require 
some 65 percent more than currently invested. I think our own eyes and 
experiences speak directly to this issue. We live in one of the most 
affluent and economically prosperous areas of the country and every day 
we are confounded by unflagging traffic congestion, often during non-
rush hour time, as well unavoidable and significant potholes and other 
road damage which is often covered with steel plates if we are lucky. 
Our bridges also are often down to one lane. Unfortunately, we have 
little in the way of options to avoid either the congestion or our 
other road problems. It has gotten worse over the last few years and 
likely will continue to get worse without substantial investment.
    More troubling, more than 40,000 persons are killed on our roads 
and highways each year. In Missouri alone, traffic fatalities have 
increased from 1,098 in 2001 to 1,123 in 2004. While we cannot 
eliminate all traffic fatalities, we must make our highways and roads 
safer and we can only do that that through investment.
    Finally, I am very concerned about reductions throughout DOT's 
fiscal year 2006 budget request. For example, regardless of my 
position, elimination of funding for Amtrak seems politically unlikely, 
not practical. However, even assuming the adoption of real reforms, I 
do not see where the needed funds can come from without putting some 
other program or priority at risk. I am thankful that the 
administration has included $146 million to support the Federal Railway 
Administration's rail safety activities, an increase of $8 million over 
the fiscal year 2005 enacted level. While helpful, this increase seems 
to underestimate the real needs. In the last 9 weeks alone, there have 
been more railway accidents than at any time since FRA began tracking 
this data.
    I have much to learn about the funding needs of DOT. I will have 
questions for today, for the record and in the future. Mr. Secretary, I 
look forward to your testimony today and to our future dialogues. I now 
turn to my new Ranking Member, Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Well, thank you very much, Mr. Chairman.
    Today signals a new day in the history of this 
subcommittee. We have broad, new responsibilities, including 
the funding needs for housing and for the judiciary. The 
subcommittee now has a complement of 19 members and only the 
Defense Subcommittee has more members than we do.
    I have to say that I am sorry to see my longtime friend and 
partner, Richard Shelby, move on to another subcommittee. 
Senator Shelby was a thoughtful and considerate chairman of 
this subcommittee and he consistently sought to produce a 
balanced, bipartisan bill that the maximum number of Senators 
could support. His leadership on this subcommittee will be 
missed.
    At the same time, I very much look forward to working with 
Senator Bond in tackling these new responsibilities. Chairman 
Bond has demonstrated a longstanding commitment to the Nation's 
transportation and housing needs. In addition to chairing the 
VA/HUD Subcommittee for several years, he has earlier served as 
the chairman of the Banking Subcommittee with authorizing 
jurisdiction over the housing programs and now serves as 
chairman of the Environment and Public Works Subcommittee with 
authorizing responsibility over our highway programs. Senator 
Bond's considerable expertise in both of these areas, as well 
as that of his staff, will be a great asset as we work together 
to assemble an appropriations bill that addresses all the 
disparate challenges that face us.
    With that goal in mind, I am sorry that the President's 
budget for fiscal year 2006 does not provide us with a better 
starting point. The Bush administration's budget for the 
Department of Transportation has a number of unjustified 
funding cuts, as well as some gaping holes.
    Over the course of the last year, air traffic has expanded 
beyond the levels we were experiencing prior to September 11, 
2001. All indications are that air traffic will continue to 
grow, but the administration has decided that now is the time 
to impose dramatic cuts in our investment at improving safety 
and expanding capacity at our airports.
    Despite the fact that the Federal Aviation Administration 
is well behind its own goals for replacing our outdated air 
traffic control system, the administration is again proposing 
funding cuts to the FAA's modernization effort. Between the 
cuts already imposed for the current year and the cuts proposed 
for next year, the administration is seeking to cut almost half 
a billion dollars out of this effort.
    Also in the area of aviation, the administration is 
proposing to cut in half funding for the Essential Air program, 
endangering the continuation of commercial air service to 
dozens of rural communities across the Nation.
    Clearly the largest gaping hole in the President's budget 
is the request to zero out the annual subsidy to Amtrak. While 
documents accompanying the President's budget speak of the 
merits of pushing Amtrak into bankruptcy, Secretary Mineta has 
stated in recent weeks that a bankrupt Amtrak is not the 
administration's goal.
    It appears that the administration wants to play a game of 
chicken with Congress, threatening to push the railroad into 
bankruptcy if we do not enact the President's proposed Amtrak 
reform bill. I think the administration's game of chicken with 
Congress is reckless and irresponsible. It will undermine the 
opportunity for a meaningful discussion of reforms. This debate 
should not take place with the threat of imminent bankruptcy 
hanging over the railroad, its 25 million passengers and its 
almost 20,000 employees.
    Personally, I would welcome congressional action on the 
Amtrak reform bill. I do not say that because I think we should 
acquiesce to the administration's threats. I say that because I 
believe a meaningful and thorough debate over Amtrak and its 
finances would bring a number of important facts to the 
surface, facts that many people are either unaware of or have 
sought to ignore.
    A thorough debate on Amtrak would require policy makers to 
admit that Amtrak's largest liability, both in the short and 
long term, is not the cost of subsidizing long-distance trains 
but rather the cost of maintaining and modernizing the 
Northeast Corridor. Just maintaining the corridor costs some 
$600 million a year. Parts of the corridor date from the early 
half of the last century. Secretary Mineta's own Inspector 
General has estimated the cost of deferred maintenance over the 
corridor exceeds at least $5.5 billion. With those huge costs 
looming, the administration now wants the States along the 
corridor to help pay them.
    A thorough debate over an Amtrak reform bill would bring to 
the surface the fact that Amtrak currently carries huge long-
term debts. Back in 1997, the Amtrak Reform Act required Amtrak 
to seek to become the only self-sufficient passenger railroad 
in the world. Congress steadily cut Amtrak's operating subsidy. 
As a result, Amtrak took on more and more debt to keep afloat. 
Amtrak's total long-term debt now exceeds $3.8 billion. This 
burden is not going to go away no matter how you reform or 
reorganize the railroad.
    A thorough debate over an Amtrak reform bill would bring to 
the surface the fact that none of the reform plans being 
considered, including the administration's proposed reform 
bill, would save money in the near term. In fact, most of these 
reform plans require a substantial restructuring that would add 
to Amtrak's near-term costs, not reduce them. Indeed, when the 
Bush administration submitted its reform plan last year, it 
also submitted a budget that boosted the amount of spending for 
2006 and beyond to $1.4 billion annually. That is $200 million 
more than we currently invest in Amtrak.
    A thorough debate over an Amtrak reform bill would bring to 
the surface the fact that the administration shares some of the 
credit and the blame for the current conditions of Amtrak, 
conditions that include the highest passenger count in history 
with the fewest number of employees in years. But when you 
review the administration's recent rhetoric on Amtrak, you 
would think that Amtrak is some independent renegade operation 
running amok with Federal dollars. The fact is that this 
Transportation Secretary and his predecessors have continually 
served on Amtrak's Board of Directors and have been party to 
most, if not all, of the railroad's strategic decisions.
    While I would welcome congressional action on an Amtrak 
reform bill for the reasons I have stated, I have to point out 
that reform legislation is the responsibility of the Senate 
Commerce Committee, and I note that its chair is here today 
with us. It is not the responsibility of the Appropriations 
Committee.
    The job of this subcommittee is to set Amtrak's subsidy 
level for the coming year. To date, the only resources the 
President has proposed for the coming year are $360 million to 
allow for the continuation of local commuter rail services only 
in the event that Amtrak ceases operations. And that is a very 
dangerous game.
    The budget resolutions currently being debated in the House 
and the Senate set the overall levels for domestic 
discretionary spending at the level included in President 
Bush's budget. That proposal includes his anticipated zero for 
Amtrak's traditional subsidy and $360 million for continuation 
of commuter services. If this budget is adopted and that 
overall ceiling on discretionary spending becomes binding on 
the Appropriations Committee for the coming fiscal year, I do 
not know where this committee is going to come up with an extra 
billion dollars to keep Amtrak operating next year.
    Let me say that while I have been critical of several 
proposals in the President's budget for transportation, there 
are some positive things to be found in this budget as well.
    The administration is finally requesting funds to reverse 
the continuing attrition of our air traffic controller 
workforce. One of my questions this morning will focus on why 
the FAA is recognizing the need to replace its dwindling number 
of controllers but not its dwindling number of air safety 
inspectors.

               PREPARED STATEMENT OF SENATOR PATTY MURRAY

    Finally, I want to applaud the proposal in the 
administration's budget to boost funding for the FAA's Joint 
Planning and Development Office, which is charged with charting 
the course for the next generation of our aviation system. The 
JPDO, as it is known, is a critical initiative that will 
determine the extent to which America remains in a leadership 
role in aviation. One area where the administration and I agree 
is that this leadership position must never be ceded to others.
    Thank you, Mr. Chairman.
    [The statement follows:]

               Prepared Statement of Senator Patty Murray

    Thank you, Mr. Chairman. Today signals a new day in the history of 
this subcommittee. We have broad new responsibilities including the 
funding needs for housing and the Judiciary. The subcommittee now has a 
complement of 19 members. Only the Defense Subcommittee has as many 
members.
    I have to say that I am sorry to see my long-time friend and 
partner Richard Shelby move on to another subcommittee. Senator Shelby 
was a thoughtful and considerate chairman of this subcommittee. He 
consistently sought to produce a balanced, bipartisan bill that the 
maximum number of Senators could support. His leadership on this 
subcommittee will be missed.
    At the same time, I very much look forward to working with Senator 
Bond in tackling these new responsibilities. Chairman Bond has 
demonstrated a long-standing commitment to the Nation's transportation 
and housing needs.
    In addition to chairing the VA-HUD Subcommittee for several years, 
Senator Bond earlier served as the Chairman of the Banking Subcommittee 
with authorizing jurisdiction over our housing programs.
    He now serves as the Chairman of the Environment and Public Works 
Subcommittee with authorizing responsibility over our highway programs.
    His considerable expertise in both these areas, as well as that of 
his staff, will be a great asset as we work together to assemble an 
appropriations bill that addresses all these disparate challenges.
    With that goal in mind, I am sorry that the President's budget for 
fiscal year 2006 does not provide us with a better starting point.
    The Bush Administration's budget for the Department of 
Transportation has a number of unjustified funding cuts as well as some 
gaping holes.

                                  FAA

    Over the course of the last year, air traffic has expanded beyond 
the levels we were experiencing prior to September 11, 2001. All 
indications are that air traffic will continue to grow.
    Yet, the Bush Administration has decided that now is the time to 
impose dramatic cuts in our investment at improving safety and 
expanding capacity at our airports.
    Despite the fact that the Federal Aviation Administration is well 
behind its own goals for replacing our outdated air traffic control 
system, the administration is again proposing funding cuts to the FAA's 
modernization effort.
    Between the cuts already imposed for the current year and the cuts 
proposed for next year, the administration is seeking to cut almost 
half a billion dollars out of this effort.
    Also in the area of aviation, the administration is proposing to 
cut in half funding for the essential air service program--endangering 
the continuation of commercial air service to dozens of rural 
communities across the Nation.

                                 AMTRAK

    Clearly, the largest gaping hole in the President's budget is the 
request to zero-out the annual subsidy to Amtrak. While documents 
accompanying the President's budget speak of the merits of pushing 
Amtrak into bankruptcy, Secretary Mineta has stated in recent weeks 
that a bankrupt Amtrak is not the administration's goal.
    It appears that the administration wants to play a game of chicken 
with Congress, threatening to push the railroad into bankruptcy if we 
do not enact the President's proposed Amtrak reform bill.
    I think that the administration's game of chicken with Congress is 
reckless and irresponsible. It will undermine the opportunity for a 
meaningful discussion of reforms.
    This debate should not take place with the threat of imminent 
bankruptcy hanging over the railroad, its 25 million passengers and its 
almost 20,000 employees.
    Personally, I would welcome Congressional action on an Amtrak 
reform bill. I don't say that because I think we should acquiesce to 
the administration's threats.
    I say that because I believe that a meaningful and thorough debate 
over Amtrak and its finances would bring a number of important facts to 
the surface--facts that many people are either unaware of or have 
sought to ignore.
    A thorough debate on Amtrak would require policy makers to admit 
that Amtrak's largest liability, both in the short- and long-term, is 
not the cost of subsidizing long-distance trains but rather the cost of 
maintaining and modernizing the Northeast Corridor.
    Just maintaining the Corridor costs some $600 million per year. 
Parts of the corridor date from the early half of the last century.
    Secretary Mineta's own Inspector General has estimated the cost of 
deferred maintenance over the Corridor exceeds at least $5.5 billion. 
With those huge costs looming, the administration now wants the States 
along to Corridor to help pay them.
    A thorough debate over an Amtrak reform bill would bring to the 
surface the fact that Amtrak currently carries huge long-term debts.
    Back in 1997, the Amtrak Reform Act required Amtrak to seek to 
become the only self-sufficient passenger railroad in the world.
    Congress steadily cut Amtrak's operating subsidy. As a result, 
Amtrak took on more and more debt to keep afloat. Amtrak's total long-
term debt now exceeds $3.8 billion. This burden is not going to go away 
no matter how you reform or reorganize the railroad.
    A thorough debate over an Amtrak reform bill would bring to the 
surface the fact that none of the reform plans being considered--
including the administration's proposed reform bill--would save money 
in the near-term.
    In fact, most of these reform plans require a substantial 
restructuring that would add to Amtrak's near-term costs, not reduce 
them.
    Indeed, when the Bush Administration submitted its reform plan last 
year, it also submitted a budget that boosted the amount of spending 
for 2006 and beyond to $1.4 billion annually--that is $200 million more 
than we currently invest in Amtrak.
    A thorough debate over an Amtrak reform bill would bring to the 
surface the fact that the administration shares some of the credit and 
the blame for the current conditions at Amtrak--conditions that include 
the highest passenger count in history with the fewest number of 
employees in years.
    But when you review the administration's recent rhetoric on Amtrak, 
you would think that Amtrak is some independent renegade operation 
running amok with Federal dollars.
    The fact is that this Transportation Secretary and his predecessors 
have continually served on Amtrak's Board of Directors and have been 
party to most--if not all--of the railroad's strategic decisions.
    While I would welcome Congressional action on an Amtrak reform bill 
for the reasons that I have stated, I have to point out that reform 
legislation is the responsibility of the Senate Commerce Committee--not 
the Appropriations Committee.
    The job of this subcommittee is to set Amtrak's subsidy level for 
the coming year. To date, the only resources the President has proposed 
for the coming year are $360 million to allow for the continuation of 
local commuter-rail services only in the event that Amtrak ceases 
operations. And that is a very dangerous game.
    The Budget Resolutions currently being debated on the House and 
Senate Floors set the overall levels for domestic discretionary 
spending at the level included in President Bush's budget.
    That proposal includes his anticipated zero for Amtrak's 
traditional subsidy and $360 million for continuation of commuter 
services.
    If this budget is adopted and that overall ceiling on discretionary 
spending becomes binding on the Appropriations Committee for the coming 
fiscal year, I don't know where this committee is going to come up with 
an extra billion dollars to keep Amtrak operating next year.
    Let me say that while I have been critical of several proposals in 
the President's budget for transportation, there are some positive 
things to be found in this budget as well.

                     AIR TRAFFIC CONTROL WORKFORCE

    The administration is finally requesting funds to reverse the 
continuing attrition of our air traffic control workforce.
    One of my questions this morning will focus on why the FAA is 
recognizing the need to replace its dwindling number of controllers but 
not its dwindling number of air safety inspectors.

                FAA JOINT PLANNING & DEVELOPMENT OFFICE

    Finally, I want to applaud the proposal in administration's budget 
to boost funding for the FAA's Joint Planning and Development Office, 
which is charged with charting the course for the next generation of 
our aviation system. The ``J.P.D.O.'', as it is known, is a critical 
initiative that will determine the extent to which America remains in a 
leadership role in aviation.
    One area where the administration and I agree is that this 
leadership position must never be ceded to others.
    Thank you, Mr. Chairman.

    Senator Bond. Thank you very much.
    Senator Stevens. I think we have to move sometime to have a 
limit on opening statements. Some of us have other committees 
to go to, and opening statements, when they go on and on, just 
delay us all.
    Senator Bond. Thank you, Chairman Stevens. I have a lot to 
say about this as my first hearing on this, and we will keep 
our questions limited to 5 minutes each and ask that others 
make limited opening statements. But now, following practice, I 
will turn to the chairman of the full committee, Chairman 
Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, let me congratulate you for 
your thoughtful and well-chosen remarks opening the hearing 
today, setting in context the challenges that we have before us 
with a limited amount of money available to this committee, to 
continue to support a massive transportation system for our 
country.
    I cannot think any other person I would rather see running 
the Department, though, than Norm Mineta. I know he has the 
experience and the talent, the know-how, the background. I can 
remember when he and I were serving in 1973 as brand new 
members of the House of Representatives and we were assigned to 
the Public Works and Transportation Committee. Through work on 
the Surface Transportation Subcommittee and then the Aviation 
Subcommittee, it afforded a training ground for him that I know 
has served him well. He has turned in a distinguished record of 
service as our Secretary of Transportation, and I congratulate 
you, Mr. Secretary, for your good work and wish you well as you 
carry out the mandate of the Congress with the funding that we 
will provide for you and our transportation system.
    Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator Cochran.
    Now, I turn to the ranking member of the full committee, 
Senator Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Mr. Chairman, I thank you, and I was very 
encouraged, by the opening statements. It seemed to me that 
``action'' and ``forward'' and ``excelsior'' are the words that 
best typify the way you see your charge in the days ahead. I 
congratulate you for assuming the chairmanship of this very 
important subcommittee. Between your responsibilities as 
chairman of the subcommittee, as well as the chairman of the 
Surface Transportation Subcommittee on the Environment and 
Public Works Committee, you, Mr. Chairman, will chart the 
future course of transportation in America.
    I believe that you will recall the words of Isaiah who 
said: ``Prepare ye the way of the Lord. Make straight in the 
desert a highway for our God. Every valley shall be exalted and 
every mountain and hill shall be laid low. The crooked shall be 
made straight and the rough places plain. The glory of the Lord 
shall be revealed and all flesh shall see it together.''
    I think you are going to make the rough places plain and 
the crooked straight. I want you to know that I admire your 
stick-to-it-iveness, your ability and the force of your 
seniority as chairman of this subcommittee is going to be felt. 
It is about time.
    I also welcome Secretary Mineta to the committee this 
morning. I have to admit that I am happier to see him than to 
see his budget.
    I am particularly concerned with the impact of the 
transportation budget on the rural communities and small towns 
of West Virginia and all of America. Mr. Secretary, rural 
America is hurting. Not everyone is caught up in the rosy 
scenarios of the White House. There are several States, 
communities, and towns that are continuing to see persistently 
high unemployment and a dwindling tax base. These places are 
stretching their public dollars to the breaking point. When I 
look at this year's budget request for the Department of 
Transportation, I believe the administration has turned the 
back of its hand to these communities.
    By proposing to eliminate all direct subsidies to Amtrak 
and put the railroad into bankruptcy, the administration 
threatens to further isolate hundreds of communities that 
depend on Amtrak to link them with the rest of the Nation's 
transportation system. For that reason, I plan to introduce an 
amendment to the budget resolution that would increase the 
funding for transportation by $1.04 billion in fiscal year 
2006. When combined with the $360 million that the President 
has requested for the continuation of commuter services in the 
event of Amtrak's termination, my amendment would bring total 
rail passenger funding up to $1.4 billion in 2006.
    When President Bush submitted his budget request for fiscal 
year 2005, the President recognized that Amtrak funding should 
grow to $1.4 billion in 2006 and beyond. My proposal would help 
the President to reach his goal.
    This administration's proposal for a reformed Amtrak seeks 
to require the States to pay all of their trains' operating 
losses for the first time. As such, the administration wants 
the States to take on these costs at the same time they are 
dealing with the skyrocketing costs of Medicaid, education, 
homeland security, and so much more.
    It is no wonder that we have not seen too many Governors 
step forward in support of the administration's Amtrak 
proposal. While the President's budget proposes to zero out all 
direct subsidies for Amtrak, the administration does request 
$360 million to maintain commuter rail service in the largest 
cities in America. There again, you see greater focus on urban 
centers and benign neglect for the needs of small communities 
and towns.
    In the area of aviation, the President's budget completely 
eliminates all funding for the small community air service 
program which has provided grants to several small airports, 
including airports in West Virginia, to recruit or retain their 
commercial air service. After zeroing out these small community 
initiatives, the administration also proposes to cut in half 
funding for the Essential Air Service. That program was an 
elemental part of the negotiated compromise that accompanied 
the deregulation of the airlines in 1978. As part of that 
compromise, the Federal Government agreed to provide full 
subsidy to ensure that certain communities would not lose all 
of their air service when the airlines streamlined their 
operations and changed their route structure. Now the 
administration wants to walk away from that deal. It does not 
want to play. It does not want to pay. But communities like 
Bluefield, West Virginia, and Beckley, West Virginia, do not 
have the kind of excess resources that would allow them to pay 
as soon as October 1 what is rightly the Federal Government's 
share.
    Now, Mr. Chairman, I believe that this transportation 
budget is particularly punitive to our small communities and 
towns and those States that have continued to struggle 
economically. These places are ill-suited to put up matching 
funds for what have long been core responsibilities of the 
Department of Transportation. I hope that we will take a 
critical eye to these proposals as we move forward on the 
budget and appropriations for the coming fiscal year.
    I thank you, Mr. Chairman. I thank our ranking member, and 
thank you, Mr. Secretary.
    Senator Bond. Thank you much, Senator Byrd.
    Senator Stevens.
    Senator Stevens. I shall wait for my time allocated for 
questions.
    Senator Bond. Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, I believe that Senator Byrd's 
statement really covers much of what I would say, especially 
about Amtrak. I am very concerned about Amtrak funding and hope 
that there can be a bipartisan agreement here in the Congress 
to deal with the funding for Amtrak.
    Essential Air Service is a very significant and serious 
issue.
    There are many issues in the President's budget that I 
believe are particularly punitive to rural areas of the 
country.
    So I will not take my entire time. I will be around to ask 
some questions, but let me associate myself with Senator Byrd's 
remarks with respect to the impact of the budget on rural 
areas.
    Senator Bond. Thank you very much, Senator Dorgan.
    Senator Domenici.
    Senator Domenici. I will defer. I will be next.
    Senator Bond. All right. We will go to Senator Burns.

                   STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. Thank you very much, Mr. Chairman. I just 
want to make a couple points and I want to thank the Secretary 
for coming today and dealing in an area that touches almost 
every American, and that is transportation.
    There are three areas that I am principally interested in: 
the airport improvement program, the Essential Air Service, and 
Amtrak.
    Essential Air Service, Mr. Secretary, you might want to 
sort of file this not 13. You might get halfway there, though. 
I think it is time we reassess our Essential Air Service, where 
those monies are going, and maybe we can save some. I know some 
areas that take advantage of a program and it is time to 
reassess or maybe have an oversight hearing on how we choose 
and how we fund EAS.
    In another area, Amtrak--I think we should be thinking more 
about light rail. We cannot in our highway system outbuild 
America's love for the automobile. 395 down here from the 
beltway into Washington from 6 o'clock in the morning until 
about 9:00 is the world's largest parking lot. So we are going 
to have to find other ways to move people because we are a 
mobile society in those areas.
    So we find ourselves with some big challenges ahead, and I 
cannot think of anybody any better to do it than you. I have a 
great deal of confidence and I think, as time moves along, we 
will overcome all these areas in which I have a great interest 
and which are very, very important to rural America. I thank 
you for coming this morning.
    Mr. Chairman, congratulations in your new chairmanship. We 
are under good leadership here. So thank you very much.
    Senator Bond. Thank you very much, Senator Burns.
    Senator Domenici.
    Senator Domenici. Are these opening statements?
    Senator Bond. Opening statements.
    Senator Domenici. I have none.
    I was going to ask him, not to answer, but I was going to 
ask--let us see how the chairman responds--are you considering 
a change in the CAFE standards? Please do not answer.
    Senator Bond. I would answer that, but I will not take the 
time.
    Senator Bennett.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman, and 
congratulations to you on your assuming this chairmanship.
    The only opening comment I would make to Secretary Mineta 
is one of gratitude for him and his staff and the cooperative 
way in which they worked with us in Utah on our various 
challenges. We have had a lot of conversation about ADA 
problems with commuter rail, and I understand that we are about 
99 percent of the way towards getting this resolved. The other 
1 percent might fall into place if the Secretary's counsel, 
Jeffrey Rosen, should come to Utah and see for himself where we 
are. On behalf of the citizens of Utah, I extend a very warm 
invitation and a very rapid invitation. As quickly as you can 
get him out there to get that resolved, Mr. Secretary, we would 
appreciate it.
    With that, Mr. Chairman, I will save anything else for the 
question period.
    Senator Bond. Thank you very much, Senator Bennett.
    And now, Secretary Mineta, despite everything, we are ready 
to have your opening statement. Please proceed. We will make 
your full statement part of the record.

                     STATEMENT OF NORMAN Y. MINETA

    Secretary Mineta. Thank you very much, Mr. Chairman. 
Congratulations on becoming the new chair of this subcommittee, 
and I look forward to working with you.
    Let me introduce with me, Jeff Rosen to my left, the 
General Counsel in our Department, and to my right, the Acting 
Assistant Secretary for Budget and Programs and Chief Financial 
Officer, Phyllis Scheinberg.
    Mr. Chairman and members of the subcommittee, thank you 
very much for this opportunity to appear before you today to 
discuss the President's fiscal year 2006 budget request for the 
Department of Transportation.
    In the context of an overall Federal budget that 
emphasizes, No. 1, spending restraint, and No. 2, directs 
resources to national priorities, items that President Bush 
spoke to in his State of the Union message. President Bush is 
requesting $59.5 billion for the Department of Transportation 
in fiscal year 2006, slightly more than his 2005 request.

                    SURFACE TRANSPORTATION PROGRAMS

    The largest portion of the President's request supports 
surface transportation programs, including $35.4 billion in 
fiscal year 2006 for the Federal Highway Administration. As all 
of you know, the President has proposed a record-setting 
surface investment of $284 billion over the 6-year period life 
of the bill, an increase of 35 percent over the Transportation 
Equity Act for the 21st Century (TEA21). Under the Safe, 
Accountable, Flexible, and Efficient Transportation Equity Act 
(SAFETEA), increased funding will go to the States, along with 
greatly expanded flexibility to encourage private investment 
and achieve more efficient use of our highways. The 
administration is strongly committed to achieving enactment of 
these and other policy initiatives in SAFETEA and to do so 
before the current extension, which is the seventh one we are 
working on and which expires on May 31.
    The administration is also proposing record support for 
transit programs in fiscal year 2006. Recommended funding 
increases by $134 million to $7.8 billion for transit projects 
that bring people to jobs and development to communities.
    Funding for highway safety, through the National Highway 
Traffic Safety Administration and the Federal Motor Carrier 
Safety Administration, increases by $45 million in fiscal year 
2006 and continues on an upward path throughout the life of the 
SAFETEA reauthorization. The Bush administration's 
unprecedented focus on safety is paying off. Even with more 
people driving more miles, we achieved the lowest highway 
fatality rate on record. SAFETEA must build on those successes.

                        INTERCITY PASSENGER RAIL

    Turning to rail, perhaps the most widely discussed aspect 
of the President's transportation budget is the decision to 
request no further subsidies for Amtrak until and unless there 
is real and meaningful reform that puts passenger rail on the 
solid foundation to grow and deliver safe and reliable quality 
service that matches local needs.
    After 34 years of Amtrak operating losses and $28 billion 
in taxpayer subsidies, it is clear that the current model of 
passenger rail service is flawed and unsustainable. Amtrak is 
on financial life support. In the last 4 years alone, annual 
Federal subsidies have more than doubled from $520 million in 
2001 to $1.2 billion in fiscal year 2005. Yet, infrastructure 
is deteriorating and service declining as Amtrak continues to 
delay desperately needed maintenance of the infrastructure that 
it already owns, and starves investments in new and innovative 
services that would attract new riders and boost revenues.
    Let me be very clear. The Bush administration remains 
committed to intercity passenger rail service and is prepared 
to commit additional financial resources if the Congress will 
join with us to create a sustainable model. I am hopeful that 
now that the debate has been opened, real reform will be on the 
congressional agenda this year.

                       FEDERAL AVIATION PROGRAMS

    Finally, for aviation, the Bush administration plans major 
investment to keep up with growing demand as passengers return 
to the skies in record numbers and as air cargo continues to 
take off, as has already been indicated by the panel.
    The President's 2006 budget requests $14 billion for the 
Federal Aviation Administration, providing major support for 
building new infrastructure and deploying technology that 
enhances the capacity and the safety of today's aviation 
system. The budget triples funding for the Joint Planning and 
Development Office where we are designing the Next Generation 
air transportation system in readiness for the dramatic changes 
ahead in the way we fly.
    Within the total FAA budget, we request funding for the 
hiring of 1,249 air traffic controllers in fiscal year 2006. 
Specifically, the operations budget includes a nearly $25 
million increase to fund 595 new air traffic controllers, in 
addition to replacing the 654 that are expected to leave the 
system through retirement. These additional controllers 
represent the first step in the FAA's plan that was announced 
in December to begin training the staff needed to replace 
future retirees and to meet the growing demand for air service. 
This is an initiative to streamline and modernize controller 
training to speed these new experts to their posts and to save 
money as well.

                           PREPARED STATEMENT

    Mr. Chairman, thank you for this opportunity to share some 
of the key elements of the President's budget request for the 
Department of Transportation for fiscal year 2006. You will 
find additional details within my written statement that was 
submitted earlier, as well as our Budget in Brief. Mr. 
Chairman, I will now be happy to respond to questions of the 
subcommittee.
    [The statement follows:]
                 Prepared Statement of Norman Y. Mineta
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the administration's 
fiscal year 2006 budget request for the Department of Transportation. 
The President's request, which totals $59.5 billion in budgetary 
resources, includes major investments in our Nation's highways and 
roadways, airports and airways, railroads, transit systems, and other 
transportation programs that move the American economy. This budget 
makes a strong commitment to the infrastructure, technology, and 
research that will ensure that our Nation's transportation network 
remains a potent and capable partner as our economy continues to grow.
    I am proud of the considerable progress that the Department of 
Transportation has made over the past 4 years in advancing the safety, 
reliability, and efficiency of our transportation system. Through the 
Bush Administration's unprecedented focus on safety, for example, we 
have achieved the lowest vehicle fatality rate ever recorded and the 
highest safety belt usage rate ever recorded. During the same time, we 
have helped bring about the safest 3-year period in aviation history.
    Enactment of a 6-year reauthorization of surface transportation 
programs is a top priority. The administration's reauthorization 
proposal, the Safe, Accountable, Flexible, and Efficient Transportation 
Equity Act, or SAFETEA, provides a blueprint for investment that 
relieves gridlock and ensures future mobility and safety on the 
Nation's roads and transit systems. The 2006 budget includes a record 
investment of $284 billion in Federal resources over the 6-year life of 
the bill--almost $35 billion more than funding under TEA21, the 
previous surface transportation authorization. Continued delays in 
enactment of the reauthorization impede proper planning by States and 
communities and deprive them of the ability to use new flexibilities 
that the Bush Administration is proposing to encourage private 
investment and achieve more efficient use of the Nation's highways.
    The budget request also reflects the imperative for reform of 
America's intercity passenger rail system, which Amtrak has been 
operating at a loss for 33 years. Amtrak has received more than $29 
billion in taxpayer subsidies, including more than $1 billion in each 
of the last 2 years, despite the requirement of the 1997 Amtrak Reform 
Act that after 2002, ``Amtrak shall operate without Federal operating 
grant funds appropriated for its benefit.'' In 2003, the administration 
sent to the Congress the President's Passenger Rail Investment Reform 
Act. This proposal would align passenger rail programs with other 
transportation modes, under which States work in partnership with the 
Federal Government in owning, operating, and maintaining transportation 
facilities and services.
    Deteriorating infrastructure and declining service further the case 
that, without congressional action on the administration's reform 
proposals, continued taxpayer subsidies cannot be justified. 
Consequently, no funding is included in the 2006 budget for Amtrak. 
Rather, $360 million is budgeted to allow the Surface Transportation 
Board to support existing commuter rail service along the Northeast 
Corridor and elsewhere should Amtrak cease commuter rail operations in 
the absence of Federal subsidies. The President's budget is a call to 
action: The time for reform is now. If the administration's management 
and financial reforms are enacted, the administration is prepared to 
commit additional resources for Amtrak--but if, and only if, reforms 
are underway. We want to work with the Congress and with Amtrak to make 
meaningful reforms that will enable intercity passenger rail to achieve 
success and Amtrak to achieve financial independence. I am optimistic 
that these reforms can be accomplished this year.
    The President's fiscal year 2006 budget includes nearly $14 billion 
for the Federal Aviation Administration to continue our investments 
both in building new infrastructure and in deploying technology that 
enhances the capacity and safety of the Nation's aviation system. The 
President's request for the FAA includes funding for the hiring of 
1,249 air traffic controllers in fiscal year 2006. Specially, the 
operations budget includes nearly $25 million to fund 595 new air 
traffic controllers in addition to replacing the 659 that are expected 
to leave the system through attrition. This net increase above the 
current replacement levels is a first step in the FAA's plan announced 
last December to begin training the staff needed to replace future 
retirees and meet growing demand for air service.
    Under the President's plan, the airport improvement program would 
receive $3 billion. These resources are sufficient to fund construction 
of all planned new runways, which are the single-most effective way to 
add capacity. This funding level is robust by historical standards. As 
recently as 2000, the Airport Grant program was funded at $1.9 billion. 
In addition to funds in the airport improvement program, airports can 
meet infrastructure needs through revenues generated from passenger 
facility charges. Many airports do not take full advantage of this 
legal authority to charge user fees which FAA estimates could produce 
an additional $350 million annually for airport development needs. The 
President's plan also triples funding to $18 million for the Joint 
Planning and Development Office. The work of this office supports the 
development of plans for transforming the future of the National air 
space to address growing capacity needs.
    Our maritime network also finds itself in greater demand, both at 
home and abroad. The President proposes to increase funding for the 
Maritime Security program by $58 million to $156 million. This increase 
will fully fund an expanded fleet of 60 ships to provide sealift 
capacity to carry equipment and supplies to those charged with 
defending our freedom and expanding liberty.
    We are grateful to the Congress for enacting the Department's 
reorganization proposal, and in accordance with that legislation, we 
have created two new administrations in place of the Research and 
Special Programs Administration (RSPA). The new Research and Innovative 
Technology Administration (RITA) promises to bring new energy and focus 
to the Department's research efforts and expedite implementation of 
cross-cutting, innovative transportation technologies. The new Pipeline 
and Hazardous Materials Safety Administration (PHMSA), has 
responsibility for the safe and secure transport of hazardous materials 
throughout the transportation network. The 2006 budget provides $130.8 
million for PHMSA's first full year of operations and $39.1 million for 
RITA. In addition, RITA is expected to receive over $300 million for 
transportation research conducted on behalf of other agencies on a 
reimbursable basis.
    Finally, I want to highlight the fiscal year 2006 President's 
budget request for the new Department of Transportation headquarters 
building project. We are pleased that the Congress has provided $110 
million in funding over the last 2 years. Today, construction is well 
under way and we are requesting your support of $100 million to 
continue the next phase of this project. Under the terms of our lease, 
the Department has only until June 2007 to vacate our current building 
without incurring substantial penalties. For that reason, fiscal year 
2006 funding is critical to ensure a timely and smooth transition for 
the Department's more than 5,600 headquarters employees.
    The fiscal year 2006 budget request recognizes that the 
transportation sector is the workhorse that drives the American 
economy, providing mobility and accessibility for passengers and 
freight, supplying millions of jobs, and creating growth-generating 
revenue. The President's budget reflects a fiscally responsible plan 
for the Department of Transportation to help America better meet its 
21st Century transportation needs. The Federal transportation budget 
must adequately fund our workforce and our programs despite the 
continuing funding challenges of national and homeland security needs. 
President Bush and I are committed to working with the Congress, and 
with our public- and private-sector partners to ensure that our 
transportation network can keep America moving confidently into the 
future.
    Thank you again for the opportunity to testify today. I look 
forward to working closely with all of you, and with the entire 
Congress, as you consider the fiscal year 2006 President's budget 
request and I look forward to responding to any questions you may have.

                 SURFACE TRANSPORTATION REAUTHORIZATION

    Senator Bond. Thank you very much, Mr. Secretary. I 
appreciate your strong statements about the importance of the 
many transportation issues facing us in this committee and in 
other committees as well. I appreciate knowing about the 
national priorities the President has set. I would have to say 
that Congress has a different view of the importance of the 
priorities than OMB seems to have.
    I would encourage you, as the ranking member suggested, to 
submit a proposal for the restructuring of Amtrak that would be 
considered by the appropriate authorizing committee, the 
Commerce Committee, rather than achieving a death sentence by a 
cleaver in the appropriations process.
    Turning now to highways, I note with interest that the 
revised reauthorization financing plan assumes $5.6 billion 
through 2009 in new highway trust fund revenues from reforming 
the structure of certain fuel tax refunds. When the Senate 
Finance Committee made this same proposal in 2004, it was 
criticized as a general fund transfer, violating one of the 
administration's three principles.
    To set the record straight, does this proposal meet with 
the funding principles, or has the administration recognized 
that transfers such as this are appropriate?
    Secretary Mineta. First of all, we did not change the 
principles that were laid out and I do not believe that we are 
violating them. But this was before we had the benefit of 
substantial discussion about the issue with the leadership and 
members of the respective committees.
    While the goal is the same, in the House Statement of 
Administration Policy (SAP), we decided that it would be more 
beneficial for Congress if we provided as much clarity as 
possible. The SAP clearly states that the President will 
support up to the $283.9 billion. That is why we are so anxious 
to see the legislation being considered by the House and Senate 
brought to completion in conference.
    But we do hold to the $283.9 billion, which is a $28 
billion increase from where we were last year. Some of that 
funding, as you know, comes from the ethanol provision, as well 
as the enforcement of the collection of the sales tax as it 
relates to the gasoline and fuel taxes.

                    REVENUE ALIGNED BUDGET AUTHORITY

    Senator Bond. Thank you very much, Mr. Secretary.
    In the administration's original SAFETEA proposal, there 
was a modification of the revenue-aligned budget authority, or 
RABA, which claimed to moderate the wide swings in spending 
that resulted from the RABA mechanism. But the administration's 
2006 budget proposes to eliminate RABA, which some may recall 
was adopted as a result of what is known, I think, as the 
Chafee-Bond legislative proposal of 1998. Why has the 
Department chosen to eliminate that provision?
    Secretary Mineta. In TEA21 there was linkage between 
Highway Trust Fund revenues and expenditures. To the extent 
that that linkage does not exist, there is no need for the RABA 
provision.
    RABA was effectively eliminated a year or 2 ago. RABA took 
care of the ups as well as the downs. About 2 years ago we had 
a real serious downturn in trust fund receipts and RABA was not 
applied at that time. This year, since there is no linkage 
between trust fund revenues and expenditures, there is really 
no need for the RABA adjustment.
    Senator Bond. Well, despite my personal interest in and 
pride in the RABA authorization, I welcome your comments that 
Federal Highway Trust Fund funding is no longer constrained by 
Highway Trust Fund receipts. We will take that under 
consideration in our actions.
    Secretary Mineta. The reason being, Mr. Chairman, is that 
we are drawing deeper into the trust fund balances in order to 
make sure we have the adequate funds to keep the program----

                      AIRPORT IMPROVEMENT PROGRAM

    Senator Bond. Changing to the other area that is of high 
priority, the FAA improvement program reductions. Enplanements 
have rebounded after 9/11, which has renewed interest in the 
need to add capacity to the national airspace system. 
Considering that adding runways is one of the most, if not 
most, effective ways to add capacity, how do you justify a $500 
million reduction in the AIP?
    Secretary Mineta. Well, we believe that $3 billion for the 
Airport Improvement Program (AIP) is sufficient to take care of 
the applications that we have pending before the Department for 
capacity building, that is runways, taxiways, and tarmacs.
    In addition, the airports themselves have available to them 
passenger facility charges (PFC's), and to that extent, many 
airports still have not triggered their own ability to finance 
some of those improvements through the use of PFC's. We believe 
that about $350 million to $400 million is still available to 
airports if they were to exercise the use of PFC's.
    Senator Bond. Thank you, Mr. Secretary.
    Senator Murray.

                    INTERCITY PASSENGER RAIL SERVICE

    Senator Murray. Thank you, Mr. Chairman.
    Mr. Secretary, during your recent appearances on Amtrak, 
you often point to the success of the Cascadia Corridor trains 
that are in the Pacific Northwest. I am also very proud of what 
we have accomplished in my State with the Cascadia trains.
    But your public statements have implied that the State of 
Washington pays all of the operating costs of that train, and 
that is just not true. Amtrak still pays the full operating 
costs of one of the three daily Seattle-Portland trains and a 
considerable amount of overhead costs for all the Cascadia 
trains.
    Your Amtrak reform proposal assumes that Washington and 
Oregon would take on 100 percent of the operating costs of 
these trains, and the only help they would get from the Federal 
Government is matching grants for capital expenses. Are you 
aware that Washington State would have to significantly 
increase its investment just to maintain the status quo if your 
reform bill was enacted?
    Secretary Mineta. We know that there is going to be an 
added burden on the States through the reform legislation. But 
we also recognize that there are some 24 or 25 States that do 
provide passenger rail services. In fact, just yesterday I met 
with a group that is called States for Passenger Rail, and 
there are some 24-25 member States in that organization. The 
vice chair of that program, in fact, is the director of the 
rail program in Washington State, Ken Uznanski. They are 
generally supportive of the Amtrak reform proposal that we have 
before Congress. The group is chaired by the Secretary of 
Transportation of the State of Wisconsin. We had a very good 
discussion about why there is need for Amtrak reform. They feel 
the uncertainty of the present program is something that the 
States cannot afford to have continue because they go through 
the roller coaster of whether or not there is going to be 
Amtrak funding.
    Senator Murray. That is true, but the States would have to 
take up considerable costs----
    Secretary Mineta. We recognize that there would be----
    Senator Murray [continuing]. Including Washington State 
that you----
    Secretary Mineta [continuing]. Including Washington State. 
But Missouri, for instance, is part of the Midwest Regional 
Rail Initiative, which consists of the States of Michigan, 
Wisconsin, Minnesota, Illinois, Missouri, Nebraska, Iowa, 
Indiana, and Ohio.
    Senator Murray. Right.
    Secretary Mineta. We know that there are States that are 
interested in rail. This way they would be able to get 50 
percent capital grants that they are not getting right now.
    Senator Murray. Well, you know that last year the director 
of the rail division of the Oregon Department of Transportation 
testified on your reform bill, and she was not very 
enthusiastic. She said in her testimony that ``the Pacific 
Northwest is touted because Oregon, Washington, and British 
Columbia appear to exist as an operating entity, and in fact, 
there is no formal compact. We exist only because Amtrak 
exists.'' It was Amtrak that put the years of effort into 
bringing those three entities together to start a viable cost-
sharing arrangement. Under your reform proposal, States will be 
required to pay for all of the operating losses of their 
trains, not just a portion as is now done in the Pacific 
Northwest.
    So tell me, even if you could get the States of the Nation 
to take on this new obligation, what entity is going to gather 
all these States together to negotiate those arrangements?
    Secretary Mineta. We are in the process of trying to find 
what is the best way to come to some agreement.
    Senator Murray. So we do not know that. We do not have an 
entity today.
    So the second question I would have is, how soon would the 
States be required to put up the funding to cover those 
operating losses?
    Secretary Mineta. Under our reform legislation, we have a 
transition period of 6 years.
    Senator Murray. Have you ever considered advocating 
flexibility for the use of Federal highway funds so the States 
can use a portion of those dollars to fund the operating losses 
on Amtrak?
    Secretary Mineta. Not to that extent. We have modeled our 
reform legislation after the way that the Federal Government 
relates to States and localities on highway programs, transit 
and aviation. We provide the capital grant funding to local and 
State governments. The States for Passenger Rail said that they 
would like to see this program modeled after the highway 
approach.
    Senator Murray. Let me ask one last question. I sent you 
some questions recently, and in your answers to them on Amtrak 
bankruptcy, you said that ``if Amtrak were to seek bankruptcy 
protection, Amtrak would do well to emulate the airlines and 
file at a time when it has substantial cash balances.'' You 
estimated that if we wait until the end of this year, Amtrak 
would only have a cash balance of $75 million, which would only 
allow the company to operate for a few weeks.
    Since you are a member of the Amtrak Board of Directors, 
you have got to be intimately familiar with its finances. Is it 
possible that the Amtrak Board of Directors is going to declare 
bankruptcy sometime in this fiscal year even while Congress 
continues to work on our budget in the reform bill?
    Secretary Mineta. I do not believe so, but let me ask Jeff 
Rosen, our General Counsel, who is my representative on the 
board of Amtrak. They will be meeting this week and I will be 
meeting with them as well.
    Mr. Rosen. Senator, I think the answer to your question is 
that the Amtrak board is engaged in a strategic planning 
process, attempting to look at places where costs can be 
reduced, where revenues might be enhanced, and where there 
would be some opportunities to improve the operation and 
financial performance of the company.
    Senator Murray. Do you foresee them declaring bankruptcy 
sometime this fiscal year?
    Mr. Rosen. That is not the object or intention. Obviously, 
everybody has to adapt as they go, but that is not the current 
plan.
    Senator Murray. Well, Mr. Chairman, I hope at some point we 
can have a hearing on Amtrak so we can hear about the financial 
situation from the Amtrak Board of Directors.
    Senator Bond. I think one may be needed in the Commerce 
Committee as well.
    Senator Stevens.

                TRANSPORTATION INFRASTRUCTURE IN ALASKA

    Senator Stevens. Mr. Secretary, I find it strange we meet 
today on the day we are probably going to consider the question 
of whether or not we will open up the North Slope of Alaska for 
oil. I note that the price of aviation fuel has gone up three 
times since 1999 and that the problem really with the airline 
industry is that it is just being put out of business because 
of high energy prices. A $1 increase in the price of fuel, I am 
told, for aviation costs 5,300 airline jobs. It is interesting 
that some people here criticize the administration for its 
budget when they refuse to recognize the need for purchasing as 
much oil as we can at home. The export of dollars to OPEC is 
just a hemorrhage.
    Today they meet in Iran. OPEC meets in Iran today. The 
estimates of some experts say by the end of the year it will be 
$80 a barrel. Today it is $54.95 a barrel.
    Now, I think it is high time some people start thinking 
about what causes the problems of transportation, particularly 
aviation. I would hope that you and the administration would 
start moving in on the question of the cost to the system by 
forever having these increased costs of buying so much oil 
abroad. It will be 60 percent by the end of the year they tell 
me. We will be buying 60 percent of our oil abroad, primarily 
from unstable countries that are today meeting in Iran. I 
cannot think of anything that is more difficult for the 
transportation industry than to face the costs of fuel.
    I have a question, though, and that relates to my problem 
about where I live. We have, as you know, a State that has half 
the coastline of the United States. Because of the withdrawals 
that were made by President Carter in 1980, we cannot build 
highways, north or south or east or west. That was the total 
plan at the time, was to prevent Alaska from being able to have 
ground transportation. We have only air transportation and that 
by sea. We have been able to build air terminals, thanks to a 
long process, but we now have some 230 small airports, most of 
them maintained by the State, but some of them by the Federal 
Government. Our reliance on water transportation increases now 
as freight gets heavier going into the rural communities. I 
find we just do not have docks. We do not have the capability 
to bring this equipment ashore in these small villages and 
small towns.
    I have been trying to find a way to develop small dock 
projects, and I want to urge your assistance to see if we 
cannot find some way to do this. We created the Denali 
Commission, formed after the Appalachian Commission that 
Senator Byrd started. We think that if we had some way to take 
funds and allow the Denali Commission to start building docks, 
we could cut the cost of delivery of freight to those small 
villages in half.
    So I am not asking a question. I am just making a plea that 
you assign some of your people to start working with us. How 
can we get docks for the small villages along the rivers and 
along the sea that have never had docks? They have had to load 
their stuff in small boats, 30-foot boats. That is just not 
possible to get it in. The airports are small airports. They 
are flying 19-passenger planes in those areas and they cannot 
carry freight. The only freight they get is really by water, 
and it is very limited as to what we can do to help them 
modernize until we can freight ashore.
    So, my friend, I just plead with you that you help me find 
some way to meet the transportation needs of rural Alaska.
    Thank you, Mr. Chairman.
    Secretary Mineta. Mr. Chairman, we have AIR21 and now 
Vision 100 related to aviation. We have had TEA21 related to 
surface transportation. Right now we are putting together a 
program called SEA21 for maritime transportation. This is a way 
of dealing with short sea shipping, using smaller ports and 
looking at the inland waterway system of the United States to 
see what we can do to enhance the movement of people and goods 
through the water system that we have. It is used extensively 
in Europe. You can travel all the way from Rotterdam to the 
Black Sea on barges or even on passenger-type vessels. Again, 
we feel that the potential is here. So we are now looking at 
SEA21. I am quite sure that that would fit in very well with 
what you were envisioning.
    Senator Stevens. Good. We look forward to working with you. 
Your friend and mine, the Congressman from Alaska, was a 
riverboat captain. We used to have riverboats but we do not 
have them any longer because they are not constructed any 
longer. We may have to look to the basic concept of acquiring 
new types of boats that can be used in the rivers of Alaska, if 
you want to go that way. But I thank you for your response.
    Senator Bond. Thank you very much, Senator Stevens.
    Mr. Secretary, we appreciate your comments about the 
importance of inland waterways transportation, and we will need 
your help on a little bill called WRDA.
    Senator Byrd.

                    INTERCITY PASSENGER RAIL SERVICE

    Senator Byrd. Thank you, Mr. Chairman. Senator Stevens, as 
Alaska's Senator of the 20th Century, we will get it done, and 
we will do what we can to help get those little ports.
    Regarding one of your so-called reform proposals, how did 
you arrive at your plan to have the States, Mr. Secretary, 
rather than the Federal Government absorb all of the operating 
costs on Amtrak? Why do you think that the States collectively 
are in a better position to fund the operating losses for 
Amtrak than the Federal Government?
    I notice in The Washington Post of March 15, these words, 
which I excerpt from the article. ``As Northern Virginia 
drivers spend more time in their cars on bottlenecked highways, 
money to expand the State's road and transit network is 
disappearing fast, transportation experts said yesterday. The 
shortage is so serious that by 2014, Virginia will have trouble 
matching Federal transportation grants, jeopardizing funding 
for construction and maintenance, a top State official told a 
gathering of the region's transportation leaders. And by 2018, 
so much of the State's transportation fund will have been 
shifted to maintenance and general spending that money to build 
new roads will be nonexistent.'' So this is the condition that 
the State and local subdivisions and communities are being 
placed in.
    So, let me say again, Mr. Secretary, how did you arrive at 
your plan to have the States, rather than the Federal 
Government, absorb all of the operating costs on Amtrak trains?
    Secretary Mineta. The basis of the reform measure was how 
we currently approach highway programs, transit, and aviation. 
In every one of those cases, the operating costs of those 
systems are borne by States and localities. The Federal 
Government does participate in funding the capital 
infrastructure costs. We felt that Amtrak should not be treated 
any differently than other modes of transportation. That was 
the basis for our using the States as the way of structuring 
the reform on Amtrak.
    Yesterday I met with the group States for Passenger Rail. 
One of the people participating in that meeting was a woman by 
the name of Karen Ray who is the director of rail for the 
Commonwealth of Virginia. They already have Virginia Railway 
Express (VRE) that goes from Fredericksburg to the District of 
Columbia, but they are also planning on rail from Richmond to 
the tidal area of Roanoke and Hampton Roads. They are also 
thinking of passenger rail service from Bristol, Virginia all 
the way to Washington, DC. They already have an agreement 
between Virginia and North Carolina, and that will be part of a 
system that will eventually go through South Carolina and on to 
Georgia. The States recognize the need for rail as an 
alternative form, and I think that we are not out of step in 
terms of the initiative that the States are already taking on 
their own.
    Senator Byrd. Mr. Secretary, I say most respectfully that 
you would make a fine U.S. Senator if we are able to continue 
to filibuster, if they do not stop us.
    But you still have not answered my question. I listened 
very closely. Why do you think, given the States' financial 
situation, that they are in a position to start absorbing the 
cost of Amtrak service?
    Secretary Mineta. Again, I would say that the States are 
taking the initiative to promote their own rail services. Right 
now they are paying for it fully on their own. This way we 
would participate 50-50 with them on their capital costs. They 
are already absorbing the operating costs right now. I would 
assume that that would continue in the future and that we would 
participate with them on the capital physical infrastructure 
costs.
    Senator Byrd. Thank you, Mr. Chairman. My time is up.
    Senator Bond. Thank you, Senator Byrd.
    Senator Domenici.

                             HIGHWAY SAFETY

    Senator Domenici. Mr. Secretary, first, I am hopeful that I 
will be here when the meeting ends because I have a matter 
pertaining to how your office is handling certain Federal 
events in my State, and I would rather state those to you 
privately. If I miss you this morning at the end of the meeting 
because I have left, I would appreciate it if you would note 
that I need a call from you about something rather urgent.
    Secretary Mineta. Great.
    Senator Domenici. Mr. Secretary, you mentioned that deaths 
were down on the highways. Could you state for the record how 
many deaths there are, even though they are down? How many 
people die on the highways?
    Secretary Mineta. The total is about 42,600, and this is 
down from over 43,000 the year before. We have not only had a 
drop in the total number of deaths, but we also have had a drop 
in the fatal accident rate even given the increase in vehicle 
miles traveled.
    Senator Domenici. Well, I did not come here prepared to 
talk about that, but it is amazing. In other situations that 
occur in the United States, McDonald's and their hamburgers, 
whatever, when we talk about obesity and death, we get all 
worked up over 300 or 400 deaths, and we have 42,000 on the 
highways. Yet, what kind of advertisements do you see by the 
automobile manufacturers? Have you seen very many yet that do 
not emphasize how fast the cars can take off, how fast they can 
go? It is amazing to me, with this kind of thing happening on 
our highways, why we are promoting speed as a reason for buying 
cars. That is just my view. It is nobody else's.

                INTERCITY PASSENGER RAIL SERVICE REFORM

    You also mentioned that Amtrak is not eliminated, rather it 
is held in abeyance pending reforms. You know, I have been 
hearing that for so long. Would you tick off three or four 
reforms that you think ought to be made? I do not want you to 
use a lot of time, but what are the reforms?
    Secretary Mineta. That we are proposing under our bill?
    Senator Domenici. No. You are saying Amtrak must make 
reforms to continue the operating subsidy. What kind of 
reforms?
    Secretary Mineta. I think there are a number of cost 
savings that they can----
    Senator Domenici. What are they?
    Secretary Mineta. For instance, dining car services.
    Senator Domenici. Okay, that is one.
    Secretary Mineta. That costs something like $84 million a 
year. I think again this is an area in which they ought to be 
taking some action.
    Senator Domenici. Well that is not very much.
    Secretary Mineta. It is like anything else. Everything does 
add up to a bottom line.
    Senator Domenici. Mr. Secretary, are the railroads, 
including Amtrak, still immune from workmen's compensation laws 
and they apply their own liability under straight tort 
liability for injuries?
    Secretary Mineta. I think that is under a different kind of 
law. There are special laws that apply to----
    Senator Domenici. I cannot help but believe that that would 
be a rather expensive liability situation. I would assume that 
might be one of the reforms being contemplated. Is that 
correct? Could you answer it, sir?
    Mr. Rosen. Senator, that is not a piece of the reform 
legislation that the administration sent up in 2003, but you 
are correct that it is an expensive piece of the puzzle for 
railroads.
    Senator Domenici. Why is it not a suggested reform? Are we 
scared of somebody?
    Mr. Rosen. Not that I know of, but I think that may be a 
useful suggestion for us to look at.
    Senator Domenici. I think it is because you are scared of 
somebody. You are scared of the unions. That is why.
    I noticed the other day there was an accident on a 
railroad. The story said that the cars tipped mildly, did not 
even turn or anything. Three days later, 12 railroad employees 
filed suits for injuries not under workmen's comp, but under 
straight tort liability. Who knows how much those cases were 
settled for. You know about that, Mr. Chairman. That is not 
workmen's comp. Just as if somebody was negligent, you recover 
under straight liability like anybody else in an automobile 
accident. That is a pretty costly item.
    Well, I did not really come to talk about that. I came here 
to talk about two things.

                        INDIAN RESERVATION ROADS

    Mr. Secretary, I have been part, for the last 10 years, of 
seeing to it that the Indian people of the United States get 
some roadway money. We passed three sets of legislation with 
each highway bill, setting aside a small portion of highway 
taxes for Indian roads. I know you cannot right here, but could 
you, for the record, tell us how that program is going, how 
much money has been put out each year by the Department, 
through the BIA or otherwise, under that piece of the law which 
sets aside a portion of the highway funds for Indian roads?
    Secretary Mineta. We will respond for the record.
    [The information follows:]

    On July 19, 2004, after approximately 5 years of negotiated 
rulemaking between representatives of Indian tribes and the Federal 
Government, the Indian Reservation Roads (IRR) Program Final Rule (25 
CFR Part 170) was published. This rule established policies and 
procedures governing the IRR Program. It expanded transportation 
activities available to the tribes and provided guidance for planning, 
designing, constructing, and maintaining transportation facilities. It 
also established an IRR Coordinating Committee of 12 tribal 
representatives to provide input and recommendations to the Bureau of 
Indian Affairs (BIA) and the Federal Highway Administration (FHWA) on 
the IRR program.
    In addition, the Final Rule established a funding distribution 
methodology for IRR Program funds. As a result part of the negotiated 
rulemaking, the entire IRR inventory of 63,000 miles contribute towards 
the amount of IRR Program funds the tribes receive. The limitation on 
the growth of the inventory has been eliminated.
    IRR Program Funds are distributed by tribal allocation. The formula 
methodology used to determine each tribe's allocation is composed of 
three factors. The largest contributing factor is a tribe's ``cost to 
construct,'' which contributes 50 percent. A tribe's ``vehicle miles 
traveled'' (VMT) contributes 30 percent, while its ``population'' 
contributes the remaining 20 percent. Each tribe's allocation is then 
calculated by its percentage of these factors as compared to the 
nationwide total. However, the actual distribution of the funds has 
been affected by the different continuing resolutions and extensions to 
the Transportation Equity Act for the 21st Century (TEA21).
    The following funding amount has been made available for the Indian 
Reservation Roads Program during the past four highway authorizations:
  --Surface Transportation Assistance Act of 1982 (STAA): $418 million;
  --Surface Transportation and Uniform Relocation Assistance Act of 
        1987 (STURAA): $400 million;
  --Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA): 
        $1.069 billion; and
  --TEA21: $1.47 billion.
    The current annual funding level is $275 million for the IRR 
program. After application of statutory and regulatory takedowns, the 
available funds are re-allocated from FHWA to the BIA, which is the 
only agency that receives these funds. The BIA then distributes the 
funds either directly to the tribes through self-governance agreements/
compacts or to the BIA Regional Offices. If the funds are distributed 
to the BIA Regional Offices, they in turn provide the funds to the 
tribes through Indian Self Determination Education Assistance Act 
(Public Law 93-638) contracts, Buy Indian contracts, or perform the 
work themselves on behalf of a tribe. It should be noted that the 
Indian Reservation Roads Bridge Program (IRRBP), established under 
TEA21, has dedicated $13 million of each year's IRR Program funds to 
the rehabilitation or replacement of deficient bridges within the IRR 
System. There are over 4,640 bridges on the IRR System. Approximately 
1,050 of these are deficient. To date, these funds have been utilized 
for work on over 125 IRR bridges.
    Finally, as a result of TEA21, FHWA developed by rule requirements 
and guidelines for three new management systems to assist BIA and 
tribal governments in identifying and prioritizing quality and 
quantifiable projects. In addition, FHWA, BIA, and tribal governments 
are working together both to develop an integrated transportation 
planning process to help the tribes work with the State and 
metropolitan planning organizations, and to improve their ability to 
facilitate long range advance funding for projects. There has also been 
considerable success with the tribes to develop safety audits and 
initiatives in cooperation with State and local governments.

    Senator Domenici. Will you also give us an overview, 
through your experts, on where we are, how much are we 
accomplishing, how much do we have still to get done? That 
would be an interesting thing for us. That is a big number now. 
We have got it up to almost $300 million a year. It will be 
more in the next bill.
    [The information follows:]

    One of the greatest single recent accomplishments of this program 
was the publication of the Indian Reservation Roads (IRR) Program final 
rule (25 CFR Part 170). This accomplishment involved 5 years of 
negotiated rulemaking between representatives of Indian tribes and the 
Federal Government and expands transportation activities available to 
the tribes by providing guidance for planning, designing, constructing, 
and maintaining transportation facilities.
    Over the 7 year period of fiscal year 1998 through fiscal year 
2004, approximately $1.745 billion has been made available for the IRR 
Program. These funds have been spent on improving thousands of miles of 
IRR facilities across the country as well as rehabilitating or 
replacing 125 IRR bridges. However, the backlog of needs for the IRR 
Program remains high at $15.7 billion as a majority of the IRR road 
mileage remains in fair to poor condition and more than 1,000 bridges 
are still deemed deficient.
    Another accomplishment of the program is that it has enabled the 
tribes to administer their own projects. Today tribes, through either 
self-governance compacts or Indian Self Determination Education 
Assistance Act (Public Law 93-638) self-determination contracts with 
the Bureau of Indian Affairs (BIA), administer approximately 50 percent 
of the funding made available under this program. This has provided 
local employment for tribal forces and an opportunity for significant 
local resources to be used.

                     CORRIDORS AND BORDERS PROGRAM

    Senator Domenici. My last question has to do with money 
that goes to the so-called border. We have the Borders and 
Corridors program. It was instituted, as you know, to alleviate 
problems along the borders that need upgrades on existing 
highway structures where we have a lot of traffic between 
Mexico and America and Canada and America. Would you provide 
the committee with an update on the Borders and Corridors 
program, which is important to many States, including mine? 
Would you also tell us if it has had any positive effects, and 
then where do you think the program is going? By that, I mean 
what are the problems out there that you think might be 
addressed.
    Senator Bond. Thank you very much, Senator Domenici. We 
will ask those questions for the record.
    Secretary Mineta. We will respond to that.
    [The information follows:]

    The Federal Highway Administration (FHWA) prepared a report on the 
first 5 years (fiscal year 1999-fiscal year 2003) of the program under 
TEA21. This report, The National Corridor Planning and Development and 
Coordinated Border Infrastructure Program (NCPD/CBI): History, 
Evaluation and Results, found that during the first few years of the 
program, the demand for grants under the program have outpaced the 
available funds. Through the years, most of the funds appropriated for 
the program have become designated by the Congress, and most of those 
funds have been designated for corridor projects. Five States, West 
Virginia, Texas, Kentucky, California, and Washington accounted for 
over 40 percent of the awards in the first 5 years of the program.
    Many projects are longer term, so their benefits have not been 
assessed during the short life of this program. Also, many projects are 
more costly than reflected in the grant allocation, and require 
contributions from other sources. However, anecdotal evidence from some 
recent success stories in Texas, New York, California, and Washington 
State indicates that the program has some very positive effects such as 
alleviating congestion, improving highway/railroad crossing safety, and 
expediting project implementation. These success stories are 
highlighted in the report, and a brief narrative of each follows:
World Trade Bridge, Laredo,Texas
    Mexico-U.S. trade increased in the 1980's and with it the traffic 
on the downtown Laredo Juarez-Lincoln Bridge. By the end of this 
decade, the State of Texas, the City of Laredo, the Mexican government, 
the City of Nuevo Laredo and others were discussing how to address this 
situation. In 1991, detailed coordination began for a new bridge 
outside the central business district that would carry commercial 
traffic. By 1993, projects were placed on the Texas multi-year 
transportation improvement program and in 1995 a comprehensive funding 
agreement had been reached. The total cost of the new bridge and 
related improvements was about $100 million. The NCPD/CBI contributed 
about $6 million of this total through one of the fiscal year 1999 
awards.
    The new bridge opened on April 15, 2000. Downtown back ups 
disappeared and truck traffic was successfully diverted to the new 
bridge. Substantial job growth occurred in fiscal year 2001 and seems 
clearly related to the business opportunities created by the new 
bridge.
Commercial Vehicle Processing Center, Buffalo, New York
    For a number of years, the Buffalo and Fort Erie Public Bridge 
Authority had been seeking to improve the operation of the border 
crossing at the Peace Bridge. In the late 1990's, a user group 
consisting of trucking associations, commercial carriers, brokers and 
the U.S. Customs Service developed ideas to meet this objective. One 
method that seemed promising was to develop procedures and train 
personnel to operate a Commercial Vehicle Processing Center (CVPC) on 
the Canadian side of the border. The CVPC would assist truck drivers 
with incomplete paperwork prior to the vehicles entering the inspection 
queue. Fewer vehicles failing the primary inspection would mean less 
congestion on the bridge. In fiscal year 1999, the FHWA awarded about 
$1 million in NCPD/CBI funds for developing procedures and training 
personnel for the CVPC. The Authority immediately began implementing 
this project and the CVPC opened in late fiscal year 1999. Within the 
first year, the number of vehicles failing the primary inspection fell 
from 36 percent to 15 percent. Border agencies and the U.S. Customs 
Service have recognized the CVPC as a success.
Freight Action Strategies Corridor (FAST), Seattle Metropolitan Area, 
        Washington State
    Beginning in 1994, local, State, port authority, private sector and 
Federal officials began developing plans to improve highway/railroad 
crossings and port access highways in the vicinity of the ports of 
Everett, Seattle and Tacoma, Washington. In 1997, a phased 
implementation plan was developed and in fiscal year 1999, the FAST 
corridor received the first of a number of awards from the NCPD/CBI 
program. From fiscal year 1999 through fiscal year 2003, FAST was 
awarded $32,000,000 in NCPD/CBI funds, including funds selected by the 
U.S. Department of Transportation (DOT) and funds designated by the 
Congress. The FAST project also received funds outside the NCPD/CBI 
Program, in Section 1602 of TEA21, in Section 378 of the fiscal year 
2001 DOT Appropriations Act, and in Section 330 of Division I of the 
Consolidated Appropriations Act of 2003. The first complete grade 
separation project was completed in fiscal year 2001 and by January 
2003, ten such projects were complete or nearly so. As projects have 
been completed, traffic back-ups disappeared, safety improved and 
railroad efficiency increased. Because a high percentage of jobs in the 
Seattle metropolitan area (as many as 1 in 3) are tied to international 
trade, systematic improvement of port access is seen as vital to the 
economic well being of the area.
Alameda Corridor East (ACE), San Gabriel Valley, California
    Similar to the FAST program, local, regional, State and private 
sector parties have been working together since the late 1990's to 
improve highway/railroad grade crossings (including many grade 
separation projects) in an East-West corridor with high railroad 
traffic serving the Port of Los Angeles/Long Beach. The ACE corridor 
received funds from Section 1602 of TEA21 and corridor officials credit 
this with jumpstarting the ACE program. The same officials state that, 
in the first phase of the program, $3 have been leveraged for every 
Federal $1. The ACE corridor first received a NCPD/CBI award in fiscal 
year 2000 and subsequently received awards in fiscal year 2001, fiscal 
year 2002 and fiscal year 2003. These awards totaled $9,019,000. The 
first projects have resulted in less congestion, improved safety, and 
reduced emissions. This latter result is quite important because of the 
well-known air quality problems in the Los Angeles region. Without 
these improvements, increasing rail corridor traffic would worsen the 
congestion, safety and air quality problems as well as restrict 
economic development.
    The administration has proposed to reauthorize the Corridors and 
Borders program. Under the administration's proposal, the corridor 
program would become a Multi-State Corridor Planning Program. The 
purpose of this program is to support and encourage transportation 
planning from a broader perspective, transcending traditional State and 
modal boundaries, to meet evolving freight and passenger transportation 
needs of the 21st Century. Similarly, the border program would become a 
Border Planning, Operations, and Technology Program. The purpose of 
this program is to focus on improvement to bi-national transportation 
planning, operations, efficiency, information exchange, safety, and 
security for the United States borders with Canada and Mexico.

    Senator Bond. Senator Bennett.

                    INTERCITY PASSENGER RAIL SERVICE

    Senator Bennett. Thank you, Mr. Chairman.
    Mr. Rosen, I had not realized you were here when I extended 
the invitation through the Secretary to you. I apologize. I 
extend it to you personally. We would be happy to entertain you 
in Utah in grand Olympic style.
    This is a segue, I think, into this discussion about Amtrak 
because what we are talking about here in Utah is commuter rail 
and commuter rail from Salt Lake City north. It has nothing 
whatever to do with Amtrak. It has to do with the contribution 
of the State and the Federal Transit Administration.
    I think we get hung up on Amtrak as some kind of holy grail 
that is the only solution to intercity rail traffic. I will be 
the first to say that we need intercity rail traffic along the 
western front of the Wasatch Mountains in Salt Lake County 
north of Davis County and into Weber County, but I frankly do 
not want Amtrak to have anything to do with it. I want it to be 
run by the Utah authorities that understand the needs and 
understand the situation.
    If it would be of any help in resolving the Amtrak 
budgetary problem, I am happy to offer up Amtrak service in the 
State of Utah for immediate cancellation. This is not the 
Northeast Corridor. This is not an area between Washington and 
Boston where the trains carry as many people as the airplanes 
do. We have Amtrak service into Salt Lake City that arrives--I 
know this because I have met an Amtrak train where a family 
friend was coming in by train--at 2:30 in the morning. I think 
it arrives 3 whole days every week. On the occasion where the 
family friend got off the train, there were probably four or 
five other people that got off with her. To be spending the 
kind of subsidy that we are spending to maintain that sort of 
service, which is totally unsatisfactory, completely disruptive 
of the very few people who use it, when the money should be 
going into places where there is a legitimate need for 
intercity rail traffic is silly.
    So if you want an elected official who is willing to 
sacrifice his Amtrak service for the greater good of the Nation 
and help hold down the deficit on Amtrak, I offer my State. I 
have not consulted with the mayor and I have not consulted with 
the Governor, and I do not know how much political trouble it 
is going to get me in. But knowing the number of passengers 
that disembark from Amtrak on those 3 days a week when it shows 
up, I do not think I am in much political trouble. We could 
handle that amount of passengers numerically with a single 
flight of a single 767 once a week, and all of the 
transportation problems would be taken care of. Now, I realize 
that is an oversimplification.
    I am a strong supporter of Amtrak. As the Secretary knows, 
I was in the Department of Transportation and I was the 
lobbyist for the Department of Transportation that convinced 
the Congress to create Amtrak. I have got a nice certificate 
signed by John Volpe with a big award, the Secretary's award 
for outstanding achievement, for what I did to help create 
Amtrak. And I believe in Amtrak.
    But I think the primary function here is that if you are 
going to have mass transit, you have to have a mass that needs 
to be transited. And for a very large percentage of the Amtrak 
route system, you do not have the mass that needs to be 
transited. The money should go getting people from Washington 
to Baltimore, getting Senator Biden back home to Delaware and 
Senator Specter back home to Pennsylvania. And in the areas in 
the Cascades where there is a mass to be transited, let us 
transit them by rail, and let us put the Federal money in to 
make sure that system works. But let us not, for romantic 
purposes, continue to talk about a nationwide rail network that 
some day we are going to need and pour money into it. We have 
been doing it for over 30 years. I left the Department of 
Transportation in 1970, and here we are in 2005.
    The promise I solemnly made to the Congress, as I lobbied 
that bill through, that Amtrak would require Federal subsidies 
for only 3 years, has long since been broken by every 
administration from the Nixon administration, in which this 
thing was created, on down. And it is time to get serious about 
saying let us put the money where the passengers are and let 
the romance go into the novels that people can read on the 
airplanes as they are flying over the long distances.
    Thank you, Mr. Secretary.
    Senator Bond. Thank you, Senator Bennett. Confession is 
good for the soul.
    We appreciate that purging of past sins.
    Senator Dorgan.
    Senator Dorgan. Well, Mr. Chairman, I am pleased I was here 
for that confession.
    But let me be quick to say I would not offer up my State 
with respect to its Amtrak service, and let me tell you why. I 
do not know the specifics, and I am not critical of Senator 
Bennett's position or statement with respect to Utah.
    We have the Empire Builder that comes through North Dakota 
on the northern route. It connects Chicago to Seattle. We have 
80,000 to 90,000 people get on and off in North Dakota. It is 
an important adjunct to our transportation system. It is very 
important. I happen to believe that it is worthy for us to 
subsidize Amtrak service. I just flat out believe that 
subsidizing rail passenger service is something that is all 
right with me. In terms of the set of priorities of 
investments, I think that is a good thing to do.
    Now, I do not see Amtrak as part of mass transit. That is 
perhaps where Senator Bennett and I disagree. Senator Bennett 
several times talked about mass transit. I do support mass 
transit. I come from a rural area. We do not have mass transit, 
but I support mass transit because our major cities need mass 
transit and the investment and the funds to advance mass 
transit. But Amtrak is not in my judgment mass transit.
    I really feel strongly that we need to maintain a national 
rail passenger system. If we do what the administration 
suggests we do, we will have Amtrak service from Boston to 
Florida and the income stream from the masses who would use 
that service will perhaps justify, I am guessing, that service 
and perhaps even not require subsidy.
    We subsidize every single form of transportation. Every 
form of transportation has some embedded Federal subsidy. So I 
am perfectly comfortable believing that a national rail 
passenger system is something we should subsidize.
    Now, Senator Bennett does make a point. There may be some 
circumstances where you ought not stop or you ought not serve 
if there is nobody there.
    But I am very disappointed, Secretary Mineta, once again 
that the administration believes that Amtrak as a national 
system is somehow unworthy. I really think that is the wrong 
approach and hope that those of us in Congress who will likely 
have an opportunity to vote on that in the coming days will be 
able to overturn that recommendation.
    I would like to ask a question.
    I do not mean at all to be critical of Senator Bennett. 
That was not my intention.
    Senator Bennett. Feel free.

                     ESSENTIAL AIR SERVICE PROGRAM

    Senator Dorgan. Let me ask about the Essential Air Service 
program because there is a proposed 50 percent cut in the 
funding for the Essential Air Service program. You may have 
already answered this question. Can you give me the rationale 
for that? Because that also plays into the point that Senator 
Byrd made, I think, that this is a budget that is very punitive 
to rural areas.
    Secretary Mineta. First of all, the total budget that we 
got, $59.5 billion, is shoehorned in as part of the overall 
Federal budget. The President outlined three priorities that he 
had in developing the budget: fiscal restraint, national 
defense, and homeland security. As OMB was putting the budget 
together following these three priorities, then everyone else 
either had a plus or a minus. Even with our $59.5 billion 
budget, we are still close to, I believe, a 2 percent increase 
from the previous year's request.
    So one of the programs we had to shoehorn in, as you have 
mentioned, is Essential Air Service. We have proposed 
categories of airports that would get Essential Air Service 
funds based on how close they are to a large, medium, or small 
hub airport, or a non-hub airport that has jet service.
    So we looked at how many airports fall into those 
categories and how much money we have, and then tried to figure 
out how to set the criteria for the program. In doing that, and 
given the amount of money we had for Essential Air Service, we 
are trying to maintain service to those airports, but under a 
different set of criteria.
    Senator Dorgan. Mr. Secretary, my time is about up----
    Senator Bond. Have one on me.
    Senator Dorgan. All right. Thank you. A generous new 
chairman.
    Senator Bond. Everybody else is taking one, so you might as 
well.

                      TRANSPORTATION CONNECTIVITY

    Senator Dorgan. And congratulations, by the way, to you.
    If we were to build the interstate highway today, I assume 
there would be some people that would say, well, how on earth 
can you justify building four lanes across North Dakota, 
connecting Fargo to Beach, North Dakota from the east to the 
west because out near Medora, North Dakota and Buffalo Gap and 
Alsen, there are not a lot of people out there and so not as 
much traffic. But, of course, as you know, connecting a four 
lane across North Dakota connects Minneapolis to Seattle, 
Chicago to Seattle. So the same is true with other forms of 
transportation. We can either decide this is a country or this 
is a series of very big cities, the income from which will 
support robust, aggressive transportation systems for people 
who live in big cities in the masses, and the heck with the 
rest of the country.
    That is why I raise these questions about Amtrak, about 
Essential Air Service and believe that these investments more 
tend towards saying: where can you make a profit here? Where 
are the dollars and cents with respect to profitability? And 
with respect to transportation, whether it is AIP or EAS or 
Amtrak, sometimes you can know the cost of everything and the 
value of nothing, as some say. So there is value here in some 
of these decisions to make sure that our transportation systems 
help everybody in the country, connect everybody in the 
country.
    Secretary Mineta. That was the purpose of the national 
defense highway program. One of the criteria was a four-lane 
highway. Originally the program was based on interconnectivity 
of the country, and the highway system was basically an east-
west system. It was not until the Intermodal Surface 
Transportation Efficiency Act (ISTEA) in 1991 that we went 
north-south with the national highway system.
    Today we are not talking as much about connectivity as we 
are congestion relief and increasing capacity as far as 
highways are concerned. We are trying to do the same thing in 
other modes of transportation, whether it is transit or 
aviation or, as I mentioned earlier, maritime in terms of 
inland waterways and short-sea shipping. We want to relieve 
some of the traffic that is on the highway and move it to water 
or to air or to other modes of transportation. It is not a one-
system-fits-all.
    Senator Dorgan. I would just finally observe there will 
never be congestion on the Gladstone intersection of I-94 in 
western North Dakota. But although congestion is not our issue, 
I understand congestion exists elsewhere. Access and capability 
is the issue in rural America, and access to reasonable 
transportation opportunity is just as critical for somebody 
that lives in a town of 900 people with no bus service and no 
other access as congestion is for somebody that lives in a city 
of 4 million people where they have parking lots.
    Secretary Mineta. Absolutely. You were there in 1991 when 
Congress enacted ISTEA and we changed the name of the Urban 
Mass Transit Administration to the Federal Transit 
Administration because there were rural needs that had to be 
met by transit as well. We recognize the needs of rural 
communities, whether it be in air or transit or highways, and 
we have various parameters to meet the needs of the total 
country, regardless of the mode of transportation.
    In the case of the Essential Air Service program, we had to 
build the criteria around the available funding in order to 
continue to serve those communities.
    Senator Dorgan. Mr. Chairman, thank you very much.

                   CONDITIONS AND PERFORMANCE REPORT

    Senator Bond. Thank you very much, Senator Dorgan.
    Mr. Secretary, I mentioned in my opening statement your 
Department's Conditions and Performance Report said that 
Federal investment must increase by 17 percent just to maintain 
the current system, and to improve the system would require 65 
percent more than currently invested. I would like to know what 
specific plans, both for the short term and long term, are 
being looked at by the Department to address the shortfall and 
ensure adequate funding to reduce congestion, meet our economic 
needs, and lessen the senseless loss of life, estimated to be 
one out of three traffic fatalities nationally--in my State it 
is higher--caused by inadequate highways for the traffic that 
they hold. This is a question of life and death in my State. 
How does the Department propose to meet it?
    Secretary Mineta. First, let me address the Conditions and 
Performance (C&P) Report. The needs that are talked about in 
the report are not just Federal needs. They also include the 
requirements and the responsibilities that State and local 
governments have to maintain their road structure. So, the C&P 
report does not identify only the U.S. Department of 
Transportation's financial requirements.
    Let me deal with the safety issue.

                  FUNDING FOR FEDERAL HIGHWAY PROGRAMS

    Senator Bond. Let me just point out one thing. I understand 
that the States provide--at least my State provides--a lot more 
money than the Federal Government does, but I understood your 
Conditions and Performance Report to estimate the Federal 
investment. Federal investment alone must increase by 17 
percent and improving the system would require 65 percent more.
    Secretary Mineta. I was a co-author of ISTEA and the one 
who helped put together the SAFETEA proposal that the 
administration submitted to Congress. I was not here for TEA21. 
SAFETEA is a 35 percent increase over TEA21. Even in this 
year's budget, the administration is requesting $28 billion 
more for SAFETEA than we did last year in the 2005 budget. So 
we recognize the need for an increase in highway funding. I 
believe we were trying to meet the needs that we see facing us 
today and into the future during the 6-year authorization 
period.
    The second point on safety. When I was briefing the 
President on SAFETEA in 2002, he looked at the 43,000 highway 
fatalities figure and he said that we have got to get that 
down. We have put together a multi-pronged program in the 
Department of Transportation and in SAFETEA to drive the number 
of fatalities and the fatality rate down.
    Apart from SAFETEA, we think we have already turned the 
corner, given the programs in the National Highway Traffic 
Safety Administration and in the Federal Motor Carrier Safety 
Administration. As I said earlier, our annual traffic 
fatalities are about 42,600, whereas in 2002 they exceeded 
43,000. So we have turned the corner.
    Senator Bond. Mr. Secretary, I know those figures but in my 
State we are killing people on two-lane highways that have 
traffic that everybody recognizes requires four lanes. We do 
not have it. So I would just ask you to consider that because 
we are not solving that problem.
    Secretary Mineta. Well, we are and in fact----
    Senator Bond. The Federal role is not doing it.
    Secretary Mineta. In fact, we have been asking Missouri to 
adopt the primary seat belt law. We know that primary seat belt 
laws have a very big impact on traffic deaths.

                    INTERCITY PASSENGER RAIL SERVICE

    Senator Bond. All right. I am just about out of time.
    Let me just ask you on Amtrak. We have talked about that. 
Senator Bennett confessed to his role in it. What is the 
administration going to provide in terms of reform for Amtrak? 
Are you going to include options for State or private passenger 
rail, competition with Amtrak? When do you expect to get a 
reform proposal up, and how is that going to impact the 
appropriations death sentence for Amtrak included in this 
budget?
    Secretary Mineta. Mr. Chairman, our original proposal was 
submitted in July of 2003. We had no committee action on the 
proposal in 2004 so far in 2005. It was decided by OMB and DOT 
that in order to get action by the Congress, we would request 
zero funding for Amtrak. I think that has gotten everyone's 
attention. In fact, that is how I think I got this black and 
blue mark.
    We will submit, probably within 1 week or 2, essentially 
the same legislation that we submitted in July of 2003, with 
some refinements in terms of what we ought to be doing.
    Senator Bond. Thank you very much, Mr. Secretary.
    Senator Murray.

                         FAA SAFETY INSPECTORS

    Senator Murray. Thank you, Mr. Chairman.
    Mr. Secretary, in 1996 the FAA significantly increased the 
number of aviation safety inspectors in light of that 90-day 
safety review that was conducted in the aftermath of the 
ValuJet crash in Florida. Unfortunately, the number of 
inspectors has been consistently below the standard of 3,297 
that was set in that review. In fact, Mr. Secretary, I believe 
that the National Civil Aviation Review Commission that you 
chaired called for even higher inspector levels.
    I understand that the FAA may lose as many as 250 
inspectors this year through attrition and that the agency has 
no intention to back-fill for these positions. That really 
concerns me. Why are you not filling the vacancies for these 
critical safety positions?
    Secretary Mineta. As I recall, we are increasing the number 
of safety inspectors by 197.
    Senator Murray. We are losing 250 this year for 
retirements.
    Secretary Mineta. I am not sure of the number that we are 
losing, but I know that given the foreign repair station issue 
and a number of other things that are coming up, we are 
increasing the number of aviation safety inspectors. I 
misspoke. It was not 197. It was 97.
    Senator Murray. Right, at a time when we are losing 250.
    Secretary Mineta. I will check on that.
    [The information follows:]

    During fiscal year 2005, staffing for FAA's Aviation Safety line of 
business (Regulation and Certification) will decrease from 6,429 to 
6,187 due primarily to attrition, a net loss of 302 staff, including 
256 safety inspectors and engineers. This decrease, which does not 
include air traffic controllers, is partially offset by a requested 
fiscal year 2006 budget increase of 97 safety inspectors and engineers 
to: (1) improve oversight of domestic and foreign repair stations; (2) 
oversee FAA's Air Traffic Organization (ATO); (3) establish a new 
safety oversight office in China; and (4) restore a small portion of 
the staff lost in fiscal year 2005. Safety will always come first, and 
the FAA will not reduce its oversight of the air carriers. Instead, the 
agency will reduce the number of staff who certify new products, and 
its aviation medicine and regulatory offices.

    Senator Murray. I think you would agree with me when the 
airlines are struggling financially and we are outsourcing an 
increasing portion of the maintenance work, replacing these 
inspectors should be at the top of the priority list. So if you 
could get back to me on when you are going to fill those 
vacancies.
    Secretary Mineta. Given the financial condition of the 
airlines, I told the FAA that I want to make sure that the 
inspection workforce is checking all of the maintenance 
records. I had a hearing, I think it was in 1988, on what we 
call pencil whipping, where inspectors were saying what they 
were doing, but that was not the case.
    Senator Murray. Okay. Well, I am very concerned about that 
so I would like to hear back from you.

                            RAILROAD SAFETY

    On another area--and, Mr. Chairman, you talked about some 
of the rail safety programs and concerns, and I hope that we 
can have a hearing on that at some point. But we do know that 
there were two very serious railroad crashes that resulted in 
several fatalities in January just a few months ago, one in 
South Carolina and one in California. Those crashes came right 
on the heels of an investigation by your Inspector General into 
whether your Federal Railroad Administration was exercising 
sufficient safety oversight of the railroads. I want to know 
from you what specific actions you are taking to step up 
enforcement.
    [The information follows:]

    The Federal Railroad Administration (FRA) enforces railroad safety 
laws and regulations vigorously. To accomplish this, FRA uses a variety 
of enforcement tools, including civil penalties, emergency orders, 
compliance orders, compliance agreements, individual liability, and 
criminal enforcement. FRA is accelerating development of a new National 
Inspection Plan that will help to deploy its inspection force of about 
415, supplemented by 160 State inspectors, to the highest value safety 
targets. FRA is also reviewing extensive safety data and focusing 
inspections to achieve the maximum safety benefits. FRA is targeting 
its current efforts toward the leading causes of train accidents: human 
factors and track. On human factors, FRA is considering regulatory 
action addressing the leading causes of accidents. On track, FRA is 
continuing aggressive, focused enforcement efforts and conducting 
research on technologies that will assist in detecting hidden track 
defects.

    Senator Murray. And I also want to press the fact that a 
number of press reports suggested that the FRA has been too 
close to the industry that it regulates, and the agency's 
Deputy Administrator resigned after the Inspector General found 
that she had not taken sufficient steps to avoid the appearance 
of inappropriate contact between her and the chief lobbyist for 
the Union Pacific Railroad. As a result, the agency has been 
without a confirmed Administrator or Deputy Administrator for 
several months, and I want to know when you are going to be 
appointing a new Federal Railroad administrator.
    Secretary Mineta. The resignation of the acting FRA 
administrator came in December, and in about mid-February I 
submitted a name for administrator of FRA. That person is going 
through the background investigation right now, and it will 
take roughly 60 to 70 days to complete the investigation. As 
soon as the background investigation is completed, then the 
White House is in a position to forward the name to the Senate.
    Senator Murray. I am very concerned about whether we can 
have a new attitude about safety and enforcement without 
somebody at the top.
    Secretary Mineta. In the meantime, we are not letting rail 
safety go unnoticed or not dealt with. Robert Jamison, the 
Deputy Administrator of FTA, is now the acting Administrator of 
the Federal Railroad Administration. I have asked him to look 
at rail safety as the No. 1 priority. Just within the last 
week, we have had something like nine accidents and I will not 
put up with it. I said to him that we want to deal promptly 
with this issue. So Robert is working on the rail safety 
program.
    And it goes back to the Graniteville, South Carolina 
accident. Robert Jamison was appointed as the acting 
administrator when his predecessor stepped down, and I think 7 
hours later the Graniteville accident occurred. So safety is 
his No. 1 issue.
    Senator Murray. I see that my time is up for this round, 
but there were nine fatalities in that accident. There were 11 
in California. I think this is a serious issue.
    Secretary Mineta. Absolutely, I agree with you.
    Senator Murray. Mr. Chairman, I hope we can have a hearing 
on that as well.
    Senator Bond. Senator Byrd.

                     ESSENTIAL AIR SERVICE PROGRAM

    Senator Byrd. Well, thank you again, Mr. Chairman.
    Mr. Secretary, you and I have been around transportation 
policy for a long time. I was chairman many years ago of this 
subcommittee.
    We have been around long enough to remember the discussions 
and the arguments that surrounded airline deregulation. I voted 
to deregulate the airlines. That is one of the votes I have 
always regretted, Mr. Chairman. We paid for it immediately, for 
that bad vote. In West Virginia, my then colleague, Senator 
Randolph, voted the other way. That was a long time ago.
    The establishment of the Essential Air Service was at the 
very heart of the compact that was made with the flying public 
when we agreed to deregulate the airlines. We said that the 
Federal Government would continue to pay to ensure the 
continuity of air service to communities, that the airlines 
might want to abandon. And you are now proposing to cut funding 
for the Essential Air Service in half and require that cut be 
made up through contributions from the communities themselves.
    Now, Mr. Secretary, President after President after 
President, Democratic and Republican, have proposed to cut this 
program. I have, time and again, supported successfully the 
restoration of monies that were cut by an administration.
    Why is this cost-sharing requirement not an example of the 
administration reneging on the commitment made by the Federal 
Government to these communities? Your answer please.
    Secretary Mineta. Senator Byrd, first of all, the EAS 
program has essentially remained the same without any 
legislative change since 1978, the year of deregulation.
    Secondly, as I was mentioning to Senator Dorgan, we are 
trying to maintain the number of communities that receive 
Essential Air Service, but by shoehorning those airports within 
the amount of money that we have available. We built the 
criteria for eligibility to be a part of the program based on a 
$50 million request.
    Senator Byrd. Following this program of shoehorning, are we 
not being short-sighted? We are cutting air service to small 
communities, to rural communities, and this is vital to the 
communities. They cannot be O'Hare. They cannot be Dulles. They 
cannot be the Washington Reagan National Airport, but they 
serve the needs of people in areas such as Beckley, for 
example, and Bluefield, West Virginia. I cannot understand why 
the administration believes that communities the size of these 
two cities that I mentioned will have the resources to 
subsidize this airport. I think it is short-sighted. But as I 
say, it has happened under President after President after 
President.
    Secretary Mineta. My philosophy is to protect the most 
isolated communities, given the amount of money we have 
available.
    Senator Byrd. That is the point, given the amount of money 
we have. Why does the administration not push for an increase, 
or certainly we are going to try here to restore these monies. 
It is a philosophy, Mr. Secretary, I respectfully disagree with 
and have all along. We will be at it again.
    I hope we will not use this term ``shoehorn'' to express 
our philosophy as to the way we are going to help people 
shoehorn it into the amount of money we have when, Mr. 
Secretary, your administration will oppose our efforts to 
restore this. We want something larger, a larger amount in 
which to shoehorn small communities like Beckley and Bluefield.
    Thank you, Mr. Chairman. My time is up.
    Senator Bond. Thank you, Senator Byrd.
    We have had very interesting discussions. I am going to ask 
three more questions only. I know you will be disappointed. I 
will submit the rest for the record. Then we will turn to our 
ranking member and Senator Byrd for as many questions as they 
wish to ask here.
    Senator Byrd. Mr. Chairman?
    Senator Bond. Yes, sir.
    Senator Byrd. Let me just thank you before you do that. I 
recognize the shortage of time. I am glad that we are going to 
submit questions to be answered for the record. I will join you 
in that. Thank you.

                      HOURS OF SERVICE RULEMAKING

    Senator Bond. Thank you very much, Senator Byrd. We 
appreciate your questions and your leadership.
    Mr. Secretary, in July 2004, a Federal court overturned the 
new hours of service rules for truckers because the FMCSA had 
not considered driver health. There were other concerns that 
the court raised. Congress has temporarily extended the new 
rule until 2005 to give FMCSA time to respond to the court's 
ruling. FMCSA reproposed the rule in 2005 after adding 
information. But the agency has also asked Congress to enact 
regulations in law during TEA21.
    I would like to know your views on whether these new rules 
have improved safety. And a very real concern has been raised 
by the trucking industry as to the economic impact of this 
rule. Have you considered, first and foremost, the health and 
safety of the drivers and the impact on the economy by these 
rules?
    Secretary Mineta. In 2001, the first person I had to head 
the Federal Motor Carrier Safety Administration was a gentleman 
by the name of Joe Clapp. He was the chairman and CEO of Yellow 
Freight, and fully understood and appreciated the impact of the 
hours of service (HOS) rule as it related to the safety and 
economics of the trucking industry.
    His successor as the Administrator of the Federal Motor 
Carrier Safety Administration, Annette Sandberg, has developed 
a really good rule. It is supported by the American Trucking 
Association. They feel, even where the HOS rule was overturned, 
that it is the right approach.
    But beyond that general response, let me ask our General 
Counsel on the specifics as to the timing of where we are going 
to go now.
    Senator Bond. If you could give us a brief answer, Mr. 
Rosen.
    Mr. Rosen. I will try to be brief. The proposed rule was 
intended to use available science and data to improve safety 
but with a reasonable balance of the costs. The administration 
believes that it did that, and so we have asked the Congress to 
extend that 1-year allowance of the rule to stay in effect, to 
instead ratify that the rule would remain in effect on a 
permanent basis, subject to whatever improvements the 
administration could do thereafter.
    The Federal Motor Carrier Safety Administration staff is 
looking at what other improvements or refinements could be 
achieved and, if need be, they will get themselves in a 
position to respond as the court had required. But our hope is 
that rather than have continued litigation and continued rounds 
of work on that, we could have the rule codified or ratified.

                        HIGHWAY CONGESTION RELIEF

    Senator Bond. Thank you, Mr. Rosen.
    Very briefly, Mr. Secretary, a year ago there was testimony 
that the FTA did not have an effective method to consider the 
congestion relief on highways that the new transit systems were 
intended to provide. FHWA and FTA were directed to work on a 
solution. Where is that solution? Have you come up with a new 
paradigm for that?
    Secretary Mineta. Mr. Chairman, can I get back to you for 
the record on that please?
    Senator Bond. We would be happy to do that.
    [The information follows:]

    FTA is working with FHWA to study the extent to which transit 
provides congestion relief. FTA has determined that that locally-
developed travel models used in metropolitan areas seeking New Starts 
funds are incapable of producing reliable estimates of highway user 
benefits resulting from construction of the New Start. FTA expects to 
provide a report on the New Starts Rating and Evaluation Process--
Congestion Relief--to the House and Senate Committees on Appropriations 
by June 1, 2005 as requested in House Report 108-671. By further 
Congressional direction, FTA provides monthly updates to Congress on 
the progress of the study.
    FTA has identified possible causes of the unreliability of highway 
user benefits. These include: an insufficient number of iterations of 
capacity constraint in the highway assignment model; inconsistency 
between the decision rules used to find highway paths and make 
assignments of traffic to those paths; and the lack of attention to the 
resulting congested highway travel times. Potential remedies would 
include several hundred iterations of capacity constraint, consistent 
decision rules for highway paths and assignment, and improved quality 
control of congested highway travel times. These remedies are currently 
being tested in several different metropolitan areas. FTA's intent is 
to understand the value of the remedies in time for the June 1, 2005 
report. The timing of implementation of the remedies will be dependent 
on the success of the tests and the degree of effort required by 
metropolitan areas to modify their travel models.

    Senator Bond. Finally, the FTA last week delivered a letter 
instituting new criteria for ratings on every project in the 
pipeline and current ratings related to cost effectiveness. The 
letter says that no full funding grant agreement will be 
approved for a New Starts project that does not have a cost 
effectiveness rating of medium. Of the six projects other than 
full funding grant agreements recommended for funding in the 
budget request, four would be directly impacted by this 
proposal. The policy, while it may be prudent, came only 6 
weeks after the projects had been rated for the year.
    I am concerned that this drastic change in policy appears 
to be arbitrary. How can you respond to that? And are there any 
other changes to the New Starts rating process on the horizon?
    Secretary Mineta. First of all, there are not any other 
changes in the process for the upcoming fiscal year. We are 
taking a look at all of the projects, and I am not in a 
position right now to say what we are going to do with them.
    Senator Bond. Is it not arbitrary, on the short time frame 
just after you fund it, to then say no New Starts? How is that 
going to work?
    Secretary Mineta. The reason I hesitated is that I did not 
know whether we had made the final decisions, but I have just 
been informed that we are going to grandfather some of them.
    Senator Bond. Thank you.
    Secretary Mineta. I knew we were talking about it, but I 
did not know whether we had actually come to that conclusion. 
So two projects will be grandfathered under the previous 
criteria.
    Senator Bond. There will be a lot of people happy with 
that. Thank you, Mr. Secretary.
    Senator Murray.

                             AVIATION FEES

    Senator Murray. Thank you.
    Mr. Secretary, I just have a few questions left and I 
wanted to ask you, because I am sure you are aware in the 
Homeland Security budget, the administration is proposing to 
increase the security fee paid by passengers by 120 percent 
next year from $2.50 to $5.50 a segment. As you are well aware, 
the airlines are complaining bitterly, and I think that this 
$1.5 billion tax increase will further undermine their ability 
to recover economically.
    In your formal testimony that you submitted, you justify 
your half a billion cut in airport investments by arguing that 
several airports are not yet charging the full allowable 
passenger facility charge that they are allowed under law. You 
seem to indicate that the proper way to invest in airports is 
through another $350 million in fees instead of from 
appropriations from the Trust Fund.
    Does the administration have any concern for the views of 
the airlines that air passengers are already over-taxed and 
that that level of taxation is undermining the airlines' 
financial viability?
    Secretary Mineta. I was not part of that discussion, 
Senator, when the DHS and OMB were talking about the $2.50 to 
$5.50 increase. I did talk to some people afterward about that 
and the impact on the airlines, but I was not part of the 
discussion beforehand.
    Senator Murray. Well, I guess my concern is that you are 
advocating a $350 million increase at the same time that the 
administration is advocating $1.5 billion in higher fees for 
airport security. That is kind of a double whammy to the 
airlines when they are all struggling.
    Secretary Mineta. The PFC's were enacted in law as user 
fees. Some local airports are utilizing them and we still have 
a number that have not adopted the PFC as a user fee. I think 
of it as a pass-through to the passenger rather than something 
that is absorbed by the airline.
    Senator Murray. Well, to the consumers and to the airlines, 
it does look like tax increases from two places in the 
administration.

                         CROSS-BORDER TRUCKING

    Well, let me ask about an issue that I know the chairman of 
this committee remembers well, and that is the U.S.-Mexico 
negotiations on cross-border trucking. That was 3 years ago 
now, and we spent a lot of time working together to make sure 
that adequate safety measures were in place prior to the 
implementation of cross-border trucking between the United 
States and Mexico.
    As required in that bill, the Inspector General continues 
to review and report to us the status of the safety provisions 
we included in the bill, and I understand that you still have 
not executed a memorandum of understanding with the Mexican 
Government which would allow the border to open. Why has it 
taken so long to reach an agreement with the Mexican Government 
on cross-border trucking?
    Secretary Mineta. Mostly because of their own reluctance to 
do so. I have had a number of meetings with Secretary Cerisola, 
and every time I meet with him, I bring up this subject. We 
have had a memorandum pending in their office for over 2 years 
and we are trying to get this memorandum of agreement 
completed. We have not been able to bring this to closure. I 
know that we have suggested that this be a topic for 
conversation between President Bush, Mexican President Fox, and 
Canadian Prime Minister Martin when they meet.
    Senator Murray. So you believe this is a reluctance on 
behalf of Mexico to move forward with cross-border trucking?
    Secretary Mineta. I think they have had tremendous pressure 
from their own trucking association, Canacar, to move forward 
on this. You appropriated funds in 2002 to put our workforce in 
place, and we have done that. We are utilizing inspectors that 
are not on the border at other inspection points, but we are 
ready to move at any time that we get that memorandum of 
agreement signed to allow our inspectors to go to their 
terminals and to the maintenance facilities of their trucking 
companies.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murray. Well, Mr. Chairman, thank you. Again, it is 
a pleasure to work with you on this committee and I look 
forward to that. I will submit any other questions I have for 
the record.
    Senator Bond. Thank you very much, Senator Murray. This has 
been an interesting start for a very challenging subcommittee.
    Secretary Mineta, as always, we appreciate your tolerance 
of the questions and your good responses. We will have further 
questions for the record. Obviously, we are going to be seeing 
a lot of each other in the months to come. I thank you and your 
staff.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Question Submitted by Senator Christopher S. Bond

    Question. A year ago, there was testimony that Federal Transit 
Administration did not have an effective method to consider the 
congestion relief on highways that new transit systems were intended to 
provide. The Federal Highway Administration and FTA were directed to 
work on a solution to this issue.
    What steps have the agencies taken and when do you expect to have 
an improved method for identifying how much congestion relief will be 
provided by new transit systems?
    Answer. Currently, locally developed travel forecasting procedures 
are incapable of producing reliable estimates of congestion relief due 
to the construction of a New Starts project. FTA has coordinated with 
FHWA to identify problems with these travel forecasting procedures, 
suggested remedies, and worked with several travel forecasters from 
areas considering New Starts projects to test these remedies. The 
success of these remedies will be understood once these local efforts 
are completed. Preliminary results indicate that there are significant 
barriers to implementation of these remedies nationally that will allow 
FTA to evaluate this highway congestion relief. However, a better 
understanding of the effort needed to overcome these barriers will be 
gained after additional testing is performed. The timing of 
implementation of improved methods will be dependent upon the extent of 
the problem with local travel forecasting procedures nationally and the 
magnitude of effort required to address these long standing problems. 
FTA plans to report findings of this research effort in the Summer of 
2005.
                                 ______
                                 
               Question Submitted by Senator Mike DeWine

                   CRITICAL BRIDGE REPLACEMENT NEEDS

    Question. Secretary Mineta, I am interested in knowing what plans 
the Department has this year and in future fiscal years to address 
critical bridge replacement needs throughout the country, particularly 
with respect to the functionally obsolete Brent Spence Bridge 
connecting Ohio and Kentucky along Interstate 75.
    Answer. Replacing and rehabilitating deficient bridges is an 
important Departmental objective. The administration recommends 
increased funding for the bridge program in its surface transportation 
reauthorization proposal--the Safe, Accountable, Flexible, and 
Efficient Transportation Equity Act of 2003. The administration also 
recommends that preventive maintenance be eligible for Federal funding 
as a means to expanding the service life of existing bridges.
    The Brent Spence Bridge services I-75 between Ohio and Kentucky. 
Replacement of the structure has received significant attention both 
locally and nationally. There are several program funds that the State 
could use to replace bridges, including the Highway Bridge Replacement 
and Rehabilitation Program (HBRRP) described in Title 23 United States 
Code, section 144. The HBRRP funds are apportioned annually to the 
States that have the responsibility for project-level decision making, 
setting priorities and allocating the available funds to the project. 
As a functionally obsolete structure, the Brent Spence Bridge is 
eligible for HBRRP funds. The needs of the Brent Spence Bridge compete 
with other projects for the funds available. Due to the size of the 
structure, funds have also been allocated to the Brent Spence Bridge 
through the Bridge Discretionary Program. In fiscal year 2004, $2 
million was designated to this project through this program. In fiscal 
year 2005, $4 million in funds were designated through this program. As 
work progresses, the project continues to be eligible for HBRRP funding 
and other categories of highway formula funds.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                     CORRIDORS AND BORDERS PROGRAM

    Question. Secretary Mineta, as you know, Border States face unique 
transportation challenges arising from their proximity to foreign 
nations. For this reason, the Corridors and Borders Program was 
instituted to help alleviate these problems and to provide for much 
needed upgrades to existing highway infrastructure.
    These programs provide funding for planning, project development, 
construction and operation of projects that serve border regions near 
Mexico and Canada and high priority corridors throughout the United 
States. New Mexico has been the recipient of this funding and has found 
it an invaluable resource in maintaining both of our high priority 
corridors.
    Mr. Secretary, could you please provide this committee with an 
update on the Corridors and Borders program?
    Answer. The Federal Highway Administration (FHWA) prepared a report 
on the first 5 years (fiscal year 1999-fiscal year 2003) of the program 
under the Transportation Equity Act for the 21st Century (TEA-21). This 
report, The National Corridor Planning and Development and Coordinated 
Border Infrastructure Program (NCPD/CBI): History, Evaluation and 
Results, found that during the first few years of the program, the 
demand for grants under the program outpaced the available funds. 
Through the years, most of the funds authorized for the program have 
been designated by the Congress, and most of those funds have been 
designated for corridor projects. Five States, West Virginia, Texas, 
Kentucky, California and Washington accounted for over 40 percent of 
the awards in the first 5 years of the program.
    Question. What have been the positive effects of this program?
    Answer. Many projects are longer term, so their benefits have not 
been assessed during the short life of this program. Also, many 
projects are more costly than reflected in the grant allocation, and 
require contributions from other sources. However, anecdotal evidence 
from some recent success stories in Texas, New York, California and 
Washington State indicates that the program has some very positive 
effects such as alleviating congestion, improving highway/railroad 
crossing safety, and expediting project implementation. These success 
stories are highlighted in the report, and a brief narrative of each 
follows:

World Trade Bridge, Laredo, Texas
    Mexico-U.S. trade increased in the 1980's and with it the traffic 
on the downtown Laredo Juarez-Lincoln Bridge. By the end of this 
decade, the State of Texas, the City of Laredo, the Mexican government, 
the City of Nuevo Laredo and others were discussing how to address this 
situation. In 1991, detailed coordination began for a new bridge 
outside the central business district that would carry commercial 
traffic. By 1993, projects were placed on the Texas multi-year 
transportation improvement program and in 1995 a comprehensive funding 
agreement was reached. The total cost of the new bridge and related 
improvements was about $100 million. The NCPD/CBI contributed about $6 
million of this total through one of the fiscal year 1999 awards.
    The new bridge opened on April 15, 2000. Downtown back ups 
disappeared and truck traffic was successfully diverted to the new 
bridge. Substantial job growth occurred in fiscal year 2001 and seems 
clearly related to the business opportunities created by the new 
bridge.

Commercial Vehicle Processing Center, Buffalo, New York
    For a number of years, the Buffalo and Fort Erie Public Bridge 
Authority had been seeking to improve the operation of the border 
crossing at the Peace Bridge. In the late 1990's, a user group 
consisting of trucking associations, commercial carriers, brokers and 
the U.S. Customs Service developed ideas to meet this objective. One 
method that seemed promising was to develop procedures and train 
personnel to operate a Commercial Vehicle Processing Center (CVPC) on 
the Canadian side of the border. The CVPC would assist truck drivers 
with incomplete paperwork prior to the vehicles entering the inspection 
queue. Fewer vehicles failing the primary inspection would mean less 
congestion on the bridge. In fiscal year 1999, the FHWA awarded about 
$1 million in NCPD/CBI funds for developing procedures and training 
personnel for the CVPC. The Authority immediately began implementing 
this project and the CVPC opened in late fiscal year 1999. Within the 
first year, the number of vehicles failing the primary inspection fell 
from 36 percent to 15 percent. Border agencies and the U.S. Customs 
Service have recognized the CVPC as a success.

Freight Action Strategies Corridor (FAST), Seattle Metropolitan Area, 
        Washington State
    Beginning in 1994, local, State, port authority, private sector and 
Federal officials began developing plans to improve highway/railroad 
crossings and port access highways in the vicinity of the ports of 
Everett, Seattle and Tacoma, Washington. In 1997, a phased 
implementation plan was developed and in fiscal year 1999, the FAST 
corridor received the first of a number of awards from the NCPD/CBI 
program. From fiscal year 1999 through fiscal year 2003, FAST was 
awarded $32,000,000 in NCPD/CBI funds, including funds selected by the 
U.S. Department of Transportation (DOT) and funds designated by the 
Congress. The FAST project also received funds outside the NCPD/CBI 
Program, in Section 1602 of TEA-21, in Section 378 of the fiscal year 
2001 DOT Appropriations Act, and in Section 330 of Division I of the 
Consolidated Appropriations Act of 2003. The first complete grade 
separation project was completed in fiscal year 2001 and by January 
2003, ten such projects were complete or nearly so. As projects have 
been completed, traffic back-ups disappeared, safety improved and 
railroad efficiency increased. Because a high percentage of jobs in the 
Seattle metropolitan area (as many as one in three) are tied to 
international trade, systematic improvement of port access is seen as 
vital to the economic well being of the area.

Alameda Corridor East (ACE), San Gabriel Valley, California
    Similar to the FAST program, local, regional, State and private 
sector parties have been working together since the late 1990's to 
improve highway/railroad grade crossings (including many grade 
separation projects) in an East-West corridor with high railroad 
traffic serving the Port of Los Angeles/Long Beach. The ACE corridor 
received funds from Section 1602 of TEA-21 and corridor officials 
credit this with jumpstarting the ACE program. The same officials state 
that, in the first phase of the program, $3 have been leveraged for 
every federal $1. The ACE corridor first received a NCPD/CBI award in 
fiscal year 2000 and subsequently received awards in fiscal year 2001, 
fiscal year 2002 and fiscal year 2003. These awards totaled $9,019,000. 
The first projects have resulted in less congestion, improved safety, 
and reduced emissions. This latter result is quite important because of 
the well-known air quality problems in the Los Angeles region. Without 
these improvements, increasing rail corridor traffic would worsen the 
congestion, safety and air quality problems as well as restrict 
economic development.
    Question. Where do you see this program going in the future?
    Answer. The administration has proposed to reauthorize the 
Corridors and Borders program. Under the administration's proposal, the 
corridor program would become a Multi-State Corridor Planning Program. 
The purpose of this program is to support and encourage transportation 
planning from a broader perspective, transcending traditional State and 
modal boundaries, to meet evolving freight and passenger transportation 
needs of the 21st Century. Similarly, the border program would become a 
Border Planning, Operations, and Technology Program. The purpose of 
this program is to focus on improvement to bi-national transportation 
planning, operations, efficiency, information exchange, safety, and 
security for the United States borders with Canada and Mexico.

                    INDIAN RESERVATION ROADS PROGRAM

    Question. Secretary Mineta, as you well know, the Indian 
Reservation Roads program is one that I have been intimately involved 
with since the early 1980's. In fact, it was in 1982, that leaders of 
the Navajo Nation came to me with the idea of allowing tribes to 
participate directly in the National Highway Trust Fund programs. I 
agreed with them and Congress agreed with me and the Indian Reservation 
Roads program was born.
    Mr. Secretary, could you please update this committee on the Indian 
Roads program?
    Answer. On July 19, 2004, after approximately 5 years of negotiated 
rulemaking between representatives of Indian tribes and the Federal 
Government, the Indian Reservation Roads (IRR) Program Final Rule (25 
CFR Part 170) was published. This rule established policies and 
procedures governing the IRR Program. It expanded transportation 
activities available to the tribes and provided guidance for planning, 
designing, constructing, and maintaining transportation facilities. It 
also established an IRR Coordinating Committee of 12 tribal 
representatives to provide input and recommendations to the Bureau of 
Indian Affairs (BIA) and the Federal Highway Administration (FHWA) on 
the IRR program.
    In addition, the Final Rule established a funding distribution 
methodology for IRR Program funds. As a result part of the negotiated 
rulemaking, the entire IRR inventory of 63,000 miles contribute towards 
the amount of IRR Program funds the tribes receive. The limitation on 
the growth of the inventory has been eliminated.
    IRR Program Funds are distributed by tribal allocation. The formula 
methodology used to determine each tribe's allocation is composed of 
three factors. The largest contributing factor is a tribe's ``cost to 
construct,'' which contributes 50 percent. A tribe's ``vehicle miles 
traveled'' (VMT) contributes 30 percent, while its ``population'' 
contributes the remaining 20 percent. Each tribe's allocation is then 
calculated by its percentage of these factors as compared to the 
nationwide total. However, the actual distribution of the funds has 
been affected by the different continuing resolutions and extensions to 
the Transportation Equity Act for the 21st Century (TEA-21).
    The following funding amount has been made available for the Indian 
Reservation Roads Program during the past four highway authorizations:
  --Surface Transportation Assistance Act of 1982 (STAA)--$418 million;
  --Surface Transportation and Uniform Relocation Assistance Act of 
        1987 (STURAA)--$400 million;
  --Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA)--
        $1.069 billion;
  --TEA-21--$1.47 billion.
    The current annual funding level is $275 million for the IRR 
program. After application of statutory and regulatory takedowns, the 
available funds are re-allocated from FHWA to the BIA, which is the 
only agency that receives these funds. The BIA then distributes the 
funds either directly to the tribes through self-governance agreements/
compacts or to the BIA Regional Offices. If the funds are distributed 
to the BIA Regional Offices, they in turn provide the funds to the 
tribes through Indian Self Determination Education Assistance Act 
(Public Law 93-638) contracts, Buy Indian contracts, or perform the 
work themselves on behalf of a tribe. It should be noted that the 
Indian Reservation Roads Bridge Program (IRRBP), established under TEA-
21, has dedicated $13 million of each year's IRR Program funds to the 
rehabilitation or replacement of deficient bridges within the IRR 
System. There are over 4,640 bridges on the IRR System. Approximately 
1,050 of these are deficient. To-date, these funds have been utilized 
for work on over 125 IRR bridges.
    Finally, as a result of TEA-21, FHWA developed through a rulemaking 
requirements and guidelines for three new management systems to assist 
BIA and tribal governments in identifying and prioritizing quality and 
quantifiable projects. In addition, FHWA, BIA, and tribal governments 
are working together both to develop an integrated transportation 
planning process to help the tribes work with the State and 
metropolitan planning organizations, and to improve their ability to 
facilitate long range advance funding for projects. There has also been 
considerable success with the tribes to develop safety audits and 
initiatives in cooperation with State and local governments.
    Question. Are there things about this program that need to be 
changed?
    Answer. The publication of the Final Rule is having major impacts 
on the way the Indian Reservation Roads program is administered. All of 
the new policies and procedures that came about through consensus in 
the negotiated-rulemaking process are in their first year of existence. 
These policies and procedures just need time to develop and function. 
For example, the inventory, long a contentious issue among the tribes, 
is now being updated electronically utilizing new software that leads 
the user through the process. The software has taken away much of the 
subjectivity of the reviewer as to what is or is not to be included in 
the inventory. Training for the BIA and tribes is taking place 
throughout the country. In addition, a Coordinating Committee composed 
of tribal and Federal representatives is being established to provide 
input and make recommendations to the Secretaries of the Interior and 
Transportation on ways to improve the delivery of the IRR Program. The 
duties and composition of the Coordinating Committee are clearly 
defined in the Final Rule, as well as the critical areas in which they 
are to concentrate their efforts.
    Question. Finally, taking into consideration the unique situation 
of the Indian people and their infrastructure needs, how does the 
Department address the issue of Indian Reservation Roads in its highway 
reauthorization proposal?
    Answer. SAFETEA, as proposed by the administration, includes many 
positive provisions addressing the infrastructure needs of the Indian 
people. These include:
  --A substantial increase in the Indian Reservation Roads Program from 
        $275 million/year to $333 million/year;
  --Providing 100 percent obligation limitation to the IRR Program;
  --Allowing design to be an eligible use of IRRBP funds;
  --Allowing IRR Program funds to be used as the non-Federal match on 
        any project funded under Title 23 and the transit chapter (53) 
        of Title 49;
  --Establishing a new Federal Lands Safety Program, which would 
        provide approximately $7.2 million to the BIA and tribes to 
        address specific safety related projects or issues on tribal 
        transportation systems. In addition, FHWA and BIA are embarking 
        on a cooperative outreach program focusing on capacity building 
        and program development.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

  SHOULD THE AMTRAK REFORM BILL BE PART OF THE SURFACE TRANSPORTATION 
                                 BILL?

    Question. Mr. Secretary, you said that you and the President 
believe that intercity passenger rail service is an integral part of 
the Nation's surface transportation system. The Congress is currently 
debating a surface transportation reauthorization bill. Last year, when 
that bill went to conference, the Bush Administration threatened to 
veto that bill for two reasons. One was the overall size of the bill; 
the other was the inclusion of any provisions related to Amtrak.
    Why does the administration object to tackling the challenge of 
reforming Amtrak as part of the surface transportation reauthorization 
bill?
    Answer. The issues surrounding the highway and transit programs are 
extremely complex as evidenced by the fact that it has now been 2 years 
since TEA-21's authorization expired. Similarly, the issues surrounding 
intercity passenger rail are extremely complex as evidenced by the fact 
that it has been 3 years since that authorization expired. However, the 
issues are not the same for all three. Intercity passenger rail has 
never before been considered as part of the reauthorization of the 
highway and transit programs, for a number of reasons, including the 
fact that Amtrak is a private corporation. To consider these complex 
and, in many ways unrelated, issues in one ``omnibus'' piece of 
legislation would add to the delay and uncertainty currently being 
experienced by the States, regional transportation authorities, and the 
traveling public, in addressing this Nation's mobility needs.
    Question. If Amtrak is part of the Nation's surface transportation 
system, why are you so adamant that this legislation move separately?
    Answer. The issues are sufficiently different that the Department 
believes that two separate pieces of legislation can be enacted more 
quickly and effectively than one. For instance, in the event one aspect 
of the intercity passenger rail reauthorization package is 
unacceptable, reauthorization of all modes will not be held up. In 
addition, the intercity passenger rail issues that Congress faces are 
not overlapping issues with other modes of transportation. For the 
other modes, unlike Amtrak, there is no question of ownership of 
infrastructure. There are already funding sources, and mechanisms in 
place for distributing those funds. These issues for Amtrak are 
significant and should not be lumped together with the issues facing 
the existing transportation programs.

                     OPERATING AUTHORITY VIOLATIONS

    Question. In August 2002, you issued a rule requiring State 
inspectors to place out of service any commercial vehicles operating 
without proper authority. However, the Inspector General's January 2005 
progress report stated that while nearly all of the States had taken 
steps to enforce operating authority violations, problems exist with 
the rule's implementation. Some States will place trucks out-of-service 
while others do nothing when they find a truck without proper operating 
authority.
    What specific steps do you plan to take to make sure that operating 
authority violations are handled consistently across the Nation?
    Answer. In August 2002, the Federal Motor Carrier Safety 
Administration (FMCSA) amended the Federal Motor Carrier Safety 
Regulations (FMCSRs) to require that a motor carrier subject to the 
registration requirements under 49 USC 13902 may not operate a 
commercial motor vehicle in interstate commerce unless it has 
registered with FMCSA. These motor carriers were further prohibited 
from operating beyond the scope of their registration. If an 
unregistered carrier's motor vehicle is discovered in operation, or 
being operated beyond the scope of the carrier's registration, the 
motor vehicle will be placed out of service and the carrier may be 
subject to additional penalties (49 CFR 392.9a).
    The States are required to enforce registration requirements as a 
condition for receipt of Motor Carrier Safety Assistance Program 
(MCSAP) funding. States have 3 years to adopt all new FMCSRs in order 
to provide sufficient time for changes to State law. In some cases, 
States automatically adopt FMCSA's new requirements while in other 
States, changes to regulations are required and in others, actual 
legislation is required. The States are approaching the end of the 3-
year grace period. FMCSA has provided guidance to Federal field and 
State MCSAP officers to standardize the identification, verification, 
and enforcement when appropriate. FMCSA is developing a State-by-State 
national program review to evaluate each State's MCSAP program for 
compatibility with the FMCSRs, and operating authority will be one of 
the major focus elements in this review. FMCSA has developed and 
deployed a system for roadside officers to access real-time data with 
regard to a carrier's operating authority and insurance coverage. The 
roadside officer can access this data through the Licensing and 
Insurance (L&I) website or a toll-free telephone number. To further 
standardize roadside operations, the Commercial Vehicle Safety Alliance 
(CVSA) will include 392.9a in their Out-of-Service criterion in the 
near future.

                    MAINTENANCE TECHNICIAN AGREEMENT

    Question. Mr. Secretary, last year, a Federal arbitrator ruled that 
the FAA had not met the minimum staffing levels needed for the agency's 
air traffic control maintenance functions based on the agreement that 
was reached in fiscal year 2000 between the FAA and its unions. Your 
budget request includes $5.4 million to hire 258 additional technical 
employees in order to meet the minimum staffing level of 6,100 as 
required by the arbitrator. However, I understand that the FAA's 
staffing report from just last month indicates that the FAA would need 
to hire as many as 400 new technicians to reach the required level.
    How do you explain the fact that there are nearly 150 fewer 
technicians than what was stated in your budget request?
    Answer. Both FAA and the Professional Airways Systems Specialists 
(PASS) agreed to meet the 6,100 staffing level goal in fiscal year 
2006. FAA is currently hiring technical employees and will be in 
compliance by the agreed upon date.
    Question. Will you direct the FAA to be more aggressive in filling 
the vacant technical positions and reach the required level in fiscal 
year 2006? I have also been told that the attrition rate of safety-
sensitive technician positions was 40 percent higher than average. This 
concerns me greatly as I hope it does you.
    Answer. The FAA is aggressively working to hire and train 
technicians in order to reach the 6,100 level by the agreed upon date. 
DOT is unsure of how the 40 percent attrition rate was calculated by 
PASS. Historically the FAA has found that the attrition rate in the 
technical workforce has ranged from a high of 5.9 percent in fiscal 
year 2000 to 4.8 percent in fiscal year 2004.
    Question. Shouldn't we be alarmed we are losing these highly 
skilled positions--specializing in safety--at such dramatic rate?
    Answer. Historically, the months of December and January have had 
the greatest number of retirements. Both FAA and PASS agreed to meet 
the 6,100 goal in fiscal year 2006, and FAA is aggressively hiring and 
training technical employees in order to comply with this agreement.
    Question. Since I understand it takes 3 to 5 years to fully train 
these safety-sensitive technicians, how can you assure us that safety 
won't be compromised given this potential void?
    Answer. To address this increased hiring and the long time period 
that it takes to fully train safety technicians, FAA has ramped up its 
training capacity in 2005 by 300 percent at the FAA Academy in Oklahoma 
City, Oklahoma, to train new technicians. Once new technicians have 
successfully completed the training course, they will be placed in 
those locations that may be currently understaffed.

                SEVERE CUTS IN THE AIRPORT GRANT PROGRAM

    Question. Mr. Secretary, last year, the President's budget cut the 
FAA's air traffic modernization program by $400 million below the 
previous fiscal year. Much to my dismay, we went along with most of 
those cuts. This year, the President's budget proposes a smaller cut to 
the F&E account but slashes the FAA's airport grant program by $472 
million or 13.5 percent below last year's level. When you compare your 
budget request to the levels in the Vision 100 authorization bill 
signed by the President, the cut to the airport grant program is even 
more dramatic--$600 million or nearly 17 percent.
    Since air travel was down significantly over the last 3 years, the 
efficiency and capacity challenges that gripped the FAA prior to 
September 11 have not been as urgent. However, today, we find that air 
travel is now finally inching near or exceeding pre-9/11 levels and the 
need to reduce delays, build additional capacity and improve customer 
service may once again become a pressing matter.
    How is it that you decided to cut the airport grant program at a 
time when air travel is now finally rebounding and airports are seeking 
to make capacity improvements?
    Answer. The fiscal year 2006 budget proposal takes into account the 
needs and changing financial conditions in the airport industry. The 
FAA's latest estimates of capital development eligible for Federal 
funding for the period 2005-2009, as identified in its biennial 
National Plan of Integrated Airport Systems (NPIAS), is down 15 
percent. Airports are scaling back or deferring their development plans 
because of financial uncertainty of the airline industry. Examples of 
development that are being scaled back generally include landside 
projects such as terminal and ground access. However, major capacity 
enhancing projects, such as new runways at major airports, are 
proceeding.
    Industry Financial Experts report:
  --Bond issues supporting new construction declined in the last 2 
        years and only modest increases are projected in the next 18 to 
        24 months.
  --Airports will continue to exercise caution in committing funds for 
        new capital development due to financial uncertainties of the 
        commercial aviation segment.
    The 2006 Budget addresses these industry findings:
  --The administration's budget submittal reflects a good balance of 
        meeting important airport infrastructure needs while taking 
        into account fiscal reality.
  --The $3 billion proposed budget is adequate to support all high 
        priority safety and capacity projects. The budget request 
        proposes a one-time adjustment to the Airport Improvement 
        Program allocation formulas to assure a minimum discretionary 
        amount of $520 million.
  --The basic structure of the FAA's current formulas is retained, 
        including doubled entitlements for primary airports and 
        maintaining non-primary entitlement for general aviation 
        airports. The budget also allows FAA to have the discretionary 
        resources available to achieve national priorities for airport 
        capital investments.

                     DECLINING TRUST FUND REVENUES

    Question. The Inspector General's ``top management challenge'' 
report highlights the growing gap between the budget request of the FAA 
and the amount of revenue that is generated through the aviation trust 
fund. While passenger traffic is returning, the average cost of a plane 
ticket has gone down and therefore the ticket tax revenue has decreased 
as well. In the current budget environment, the competition for general 
funds will remain fierce.
    Is the administration considering alternative funding mechanisms 
for the future financing of Federal aviation needs?
    Answer. Yes. There is a need for fundamental change because there 
is a mismatch between the FAA's growing budget requirements and revenue 
sources that will hamper its ability to meet the demand for services. 
The FAA needs a stable source of funding that is based both on costs 
and the services provided so that FAA can meet its mission in an 
extremely dynamic business environment.
    Question. What options are under consideration?
    Answer. All options are on the table at this time, and the FAA has 
begun to develop a set of viable proposals. The areas the FAA is 
looking at include user fees and taxes, alternatives for funding long-
term capital requirements, and an appropriate level of contribution 
from the General Fund.

           IS FTA CHANGING THE RULES OF THE NEW STARTS GAME?

    Question. Just last week, your Federal Transit Administrator 
notified the transit community that the Bush Administration no longer 
intends to support transit ``new start'' projects that don't have a 
``medium'' or higher rating for cost-effectiveness. There are four 
projects that received a ``recommended'' rating from the FTA and 
received funding in your 2006 budget request that do not qualify under 
this new criteria: Beaverton, Oregon; Denver, Colorado; Dallas, Texas; 
and Salt Lake City, Utah.
    Your budget requests a total of $158.8 million for six projects in 
the final design phase including the four I just mentioned. Also, you 
just sent up a Full Funding Grant Agreement for the project in 
Charlotte, North Carolina but that project wouldn't qualify under your 
new criteria either. Your budget requests $55 million for that project.
    Based on the FTA's new announcement, do you still stand by your 
budget requests for these five projects? Under your new policy, will 
you continue to request funding for these projects in future years?
     Answer. In the President's Fiscal Year 2006 Budget, four proposed 
projects identified as ``Anticipated FFGAs'' received specific funding 
recommendations and are not affected. This includes $55 million for the 
Charlotte, North Carolina project. However, as a general practice, the 
administration will target its funding recommendations in fiscal year 
2006 and beyond to those proposed New Starts projects able to achieve a 
``medium'' or higher cost-effectiveness rating.
    The six projects listed under the category ``Other Projects,'' 
including the four mentioned in your question, did not receive a 
specific funding recommendation in the President's Budget. In fact, as 
noted in the Budget and the Annual New Starts Report submitted to 
Congress in February, FTA did not anticipate that all six projects 
would ultimately receive a funding recommendation, and the President's 
Budget set aside only $159 million of the $260 million that could be 
utilized if all six projects were ready for funding by the time 
Congress takes up the fiscal year 2006 Transportation appropriations 
bill. FTA plans to advise the Appropriations Committees' prior to 
Senate mark-up of the administration's funding recommendations for 
these projects. Funding these projects beyond fiscal year 2006 will 
depend on the annual project rating and other factors.
    The administration's reauthorization bill says nothing about this 
new policy change. The House- and Senate-passed reauthorization bills 
do not make this policy change.
    Question. Why is DOT now imposing this new policy with no 
legislation in the middle of the year?
     Answer. The change in how the administration will target its 
recommendations for funding to projects that achieve a ``medium'' or 
higher rating for cost-effectiveness does not require legislation. The 
President and his administration must make numerous tradeoffs and 
decisions as budget recommendations to Congress are developed. The 
issue was raised in the context of finalizing the fiscal year 2006 
budget and annual New Starts report, and the change in policy was 
announced as soon as the decision was made. The policy change simply 
states that, as a general practice, the administration will no longer 
target funding to any project that receives a ``medium-low'' rating for 
cost-effectiveness. The actual project ratings (not recommended, 
recommended, and highly recommended) are not affected by this change. 
Also, the new administration funding recommendation policy does not 
apply to the four projects identified in the President's Budget under 
the category ``Anticipated Full Funding Grant Agreements'' or to the 16 
projects that already have full funding grant agreements.

      WHAT PROGRESS HAS BEEN MADE IN PIPELINE SAFETY RESEARCH AND 
                              ENFORCEMENT?

    Question. Mr. Secretary, as you well know, I have been a strong 
advocate for funding increases for the Office of Pipeline Safety. Over 
the last few years, I have been pleased that we have been able to meet 
and/or exceed your budget request in the area of pipeline safety so 
that advances can be made in research.
    With the relatively stable funding of $9 million for the R&D 
program since fiscal year 2002, what kind of progress have you been 
able to make in increasing the safety of pipeline operations in recent 
years?
    Answer. Since fiscal year 2002, the PHMSA/OPS R&D Program has been 
working with industry to develop new and better tools to help operators 
improve their capability to inspect pipelines, measure internal and 
external corrosion, monitor the integrity of those lines which were 
``unpiggable'', identify mechanical damage and improve damage 
prevention. All of these objectives relate directly to improving the 
operational safety of pipelines.
    In less than 3 years, the program has made a total of 49 awards 
addressing technology development and demonstration to increase safety 
in pipeline operations and consensus standards. These have given rise 
to eight U.S. Patent applications that improve the path of new tools 
toward commercialization.
    Some quantifiable enhancements are in-the-field inspection tools 
with a 50 percent increase in sensitivity to defects, capacity to 
inspect lines that are 30 to 50 percent smaller in size, and capability 
to identify defects on both longitudinal and circumferential welds of 
pipelines. The R&D Program has successfully developed and demonstrated 
new tools for: non-destructive testing of integrity of pipelines under 
roads; the mapping of all underground utilities with ground penetrating 
radar; and detection of leaks from medium altitude aircraft.
    Other improvements being generated by PHMSA research investments 
include tougher pipeline materials; better ways to find and eliminate 
defects before they become hazardous; and better methods for 
constructing, operating, and maintaining pipelines.
    Not only is this research program strengthening the industry's 
ability to effectively meet integrity management challenges but it is 
effectively addressing the public's demand for near-term solutions to 
public safety concerns. Research funding of the National Pipeline 
Mapping System results in increased public awareness of the location of 
pipelines and decreases the likelihood of their being damaged.
    The R&D Program contributes directly to safer pipeline operations 
by fostering development of new technologies that can be used by 
operators to improve safety performance and to more effectively address 
regulatory requirements; strengthening regulatory requirements and 
related national consensus standards; and improving the knowledge 
available to better understand safety issues.
     Question. Are there better inspection and analysis tools as a 
result of this funding? Please provide examples.
    Answer. Yes. The PHMSA research program is improving pipeline 
inspection technology and analysis tools and strengthening industry's 
ability to effectively manage pipeline integrity. Results from the R&D 
Program also have driven improvements in operators' ability to prevent 
damage to pipelines and detect leaks improve oversight of operations 
and control functions, and access and select stronger pipeline 
materials.
  --A significant outcome of the research program has been quantifiable 
        enhancement the sensitivity of inspection tools. We now have 
        tools capable of detecting defects that are at 5 percent of the 
        material thickness. This is an improvement over 10 percent 
        material thicknesses in the past.
  --PHMSA research has resulted in a significant increase in the miles 
        of pipelines that can be inspected with internal instruments. 
        Smarter and smaller internal inspection tools can inspect pipes 
        smaller than 24 inches in diameter with increased ability to 
        manipulate through valves and sharper bends.
  --New and enhanced tools for non-destructive inspection now can 
        better detect deteriorated coatings; and use of non-intrusive 
        tools to pass below roads is saving extensive construction 
        costs and traffic congestion problems. Pipelines can now be 
        inspected for internal and external defects up to 200 feet in 
        length, an increase from only 25 feet in the past. To prevent 
        mechanical damage, the R&D Program has worked with industry in 
        the development and successful demonstration of new tools that 
        utilize ground penetrating radar that can detect buried 
        utilities 25-30 percent deeper through the earth than in the 
        past and through reinforced concrete, critical to locating all 
        below ground utilities before excavation projects.
    Results from the R&D Program have accelerated the development and 
demonstration of technologies that enable decision makers to understand 
risks to the public more completely and to deal with them more 
effectively. The R&D Program continues to strengthen the knowledge 
base, technology tools and consensus standards that play a critical 
role in the steady decline in pipeline incidents, even while the 
pipeline system is expanding. The future of pipeline technology holds 
promise for a dramatic improvement in our ability to fabricate, 
construct, operate, and maintain the Nation's pipeline infrastructure.
    Question. The Pipeline Safety Improvement Act of 2002 charged PHMSA 
to review and verify operator compliance with its new integrity 
management requirements, and, where appropriate, take enforcement 
action. Your budget justification states that the Pipeline and 
Hazardous Materials Safety Administration was surprised at the degree 
of difficulty that hazardous liquid operators had in complying with the 
new regulations and that more than 90 percent of the inspections 
resulted in enforcement action.
    Why is this the case?
    Answer. PHMSA's Integrity Management regulation required hazardous 
liquid pipeline operators to implement a comprehensive, systematic 
approach to the management of pipeline safety. The required structured 
set of program elements represented a fundamental change in the way 
most hazardous liquid pipeline operators manage pipeline integrity. 
PHMSA found that most operators needed to develop new or improved 
management and analytical processes (e.g., data integration and risk 
analysis), implement new methods and technologies, and expand the 
skills of their staff to effectively manage integrity. Even those 
operators with relatively mature programs needed to introduce more 
structure in procedures and documentation.
    Operators identified about 80 percent of the hazardous liquid 
pipeline mileage as meeting the requirements for integrity protection, 
including testing. This is a far greater amount than either government 
or industry anticipated. Thus significant operator resources have been 
directed to complete the required testing and subsequent analysis of 
data. While this has paid huge dividends in repairing numerous 
integrity threats in pipelines, in some cases, the need to complete 
assessments of test data has diverted operators from other prevention 
and mitigation tasks.
    The deficiencies that PHMSA identified most frequently during 
inspections are listed below. PHMSA is working with operators to make 
needed corrections:
  --Identification of preventive and mitigative measures to protect 
        High Consequence Areas (HCAs).--The regulation requires 
        pipeline operators to do more than assess their pipelines for 
        defects. Operators must consider all threats to pipeline 
        safety; identify additional measures to prevent failures that 
        could result from such threats; and mitigate the consequences 
        should such a failure occur. Fewer than half of the operators 
        inspected (49 percent) had developed their risk analysis 
        methods sufficiently to evaluate the effectiveness of their 
        current protective measures and identify the most significant 
        vulnerabilities. Further, they had not developed the management 
        processes and implemented measures to address these 
        vulnerabilities. Most operator efforts were focused on 
        identifying pipeline segments that could affect HCAs and 
        performing integrity assessments (in-line inspection and 
        pressure testing) on the highest risk lines.
  --Considering all relevant risk factors in identifying potential 
        pipeline integrity threats.--The regulation requires operators 
        to consider all relevant risk factors to identify integrity 
        threats and names specific factors. For some operators, this 
        data was not readily available or in a format that was useable 
        in their risk analysis models. Operators needed to apply 
        significant resources and time to assemble this information and 
        incorporate it into their risk models. As a result, more than a 
        third (36 percent) of the operators had deficiencies in this 
        program element.
  --Evaluation of integrity assessment results by qualified 
        personnel.--The regulation requires that operator review of in-
        line inspection (smart pig) results be performed by individuals 
        who are qualified to do so. Nearly half of the operators 
        inspected (45 percent) had not addressed this requirement. Some 
        operators had not established what skills and capabilities were 
        required and thus could not demonstrate that their personnel 
        reviewing assessment results had the required qualifications. 
        In other cases, operators still needed to provide individuals 
        with additional training, or even hire personnel with the 
        requisite experience and background. A national consensus 
        standard is now in place to guide operators on meeting this 
        requirement.
  --Integration of other data in the evaluation of integrity assessment 
        results.--The regulation requires operators to integrate other 
        pipeline data (corrosion control records, right-of-way 
        encroachment reports, etc.) in their review of in-line 
        inspection results to more fully understand and characterize 
        pipe condition and integrity threats. Inspectors from the 
        Office of Pipeline Safety within PHMSA found that nearly half 
        of the operators (43 percent) had made little progress in being 
        able to implement this crucial requirement. To do so, operators 
        had to develop new analytical tools and data bases to utilize 
        the vast quantities of data for their pipeline network. Often 
        this work involved bringing together information from different 
        sources and in different formats (e.g., written files, pipeline 
        maps, different legacy databases), and putting it in common 
        formats. A number of operators were in the process of 
        developing sophisticated Geographic Information Systems for 
        this purpose.
  --Use of local knowledge to identify High Consequence Areas (HCAs).--
        While the National Pipeline Mapping System identifies HCAs 
        nationwide, operators must make use of their knowledge of local 
        conditions around the pipeline to identify additional high 
        consequence areas that should be protected (e.g., new 
        residential developments near a pipeline). More than a third of 
        the operators (38 percent) had not implemented this requirement 
        at the time of the inspection. To meet this requirement, 
        operators needed to define and communicate HCA information 
        requests to their field personnel, and then integrate the 
        information received from the field in all aspects of their 
        program (e.g., identifying pipeline segments that could affect 
        these areas, determining the most appropriate integrity 
        assessment tools, etc.). For many pipeline operators this was a 
        significant logistical challenge.
    PHMSA took a vigorous enforcement posture on this rule to indicate 
to the industry that the agency was serious about the operators 
developing quality integrity management programs. PHMSA used a variety 
of enforcement tools to correct serious violations and program 
deficiencies, and to foster the continued development and improvement 
of integrity management programs.

HOW WILL THE RESEARCH AND TECHNOLOGY INNOVATION ADMINISTRATION HARNESS 
                 TRANSPORTATION TECHNOLOGY INNOVATION?

    Question. With the passage of the ``Norman Y. Mineta Research and 
Special Programs Improvement Act,'' you are in the process of standing 
up two new modal administrations--the Pipeline and Hazardous Materials 
Safety Administration and the Research and Innovation Technology 
Administration. The new research and technology agency is supposed to 
have greater control and input into the research and development that 
is conducted within the Department's agencies.
    What does RITA plan to do differently in order to provide 
technological innovation?
    Answer. As envisioned by Secretary Mineta, RITA will be a 
Departmental resource for coordinating and managing the Department's 
diverse research, development and technology (RD&T) portfolio. RITA 
will coordinate and implement strategies to facilitate cross-cutting 
solutions to America's transportation challenges. In doing so, RITA 
will work with the DOT operating administrations to ensure that RD&T 
initiatives reflect sound investment decisions. Mechanisms will be 
established by RITA to ensure research results in deployable 
applications and that there is a systematic and focused process for 
transforming research findings into marketable products that will 
improve our Nation's transportation system. This approach will help to 
ensure RD&T effectiveness, eliminate unnecessarily duplication, and 
accelerate transportation innovations.
    Outside DOT, RITA will monitor research in other Federal agencies 
(e.g., Department of Energy and the Department of Homeland Security) 
that supports long-term transportation advances, and will identify 
opportunities for collaboration and potential applications of 
innovative technologies to crossmodal issues. RITA will also promote 
public-private partnerships to speed up the delivery of technological 
innovations to market. Finally, RITA will facilitate DOT participation 
in the national Science and Technology Council, including such efforts 
as the National Nanotechnology Initiative and the Hydrogen Initiative.
    Question. Please explain how you will overcome any obstacles on the 
part of the modes in this regard since they have traditionally done 
their own.
    Answer. DOT has already made significant progress in overcoming the 
obstacles of stove piping among the modes. On May 2, 2005, the 
Secretary signed DOT Order 1120.39A. This Order establishes the DOT 
RD&T Planning Council and RD&T Planning Team. It also describes the 
RD&T planning process that ensures DOT-wide coordination, integration, 
performance and accountability of DOT's RD&T modal and multimodal 
programs.
    The RD&T Planning Council is chaired by the RITA Administrator and 
includes the heads of each DOT operating administration and the 
equivalent officials from the Office of the Secretary. This senior-
level council sets broad RD&T policy and ensures RD&T coordination.
    The RD&T Planning Team, chaired by the Associate Administrator for 
Research, Development, and Technology, includes representation from the 
across the Department, supports the Planning Council and provides 
coordination for those officials managing each operating 
administration's research program.
    Transparency is a key element in achieving consensus and buy-off 
from the modes. These changes are not intended to take over the role of 
each operating administration in conducting research to supports its 
mission. The intent is to foster closer ties among the operating 
administrations and identify areas where collaborative efforts might 
improve performance and results.
    Working through the RDT&T Planning Council and Team, the 
Department's RD&T agenda will be aligned with the DOT Strategic Plan 
and with Secretarial and administration priorities and policies. The 
operating administrations will continue to conduct RD&T activities 
based on their agency missions, input from stakeholder groups, 
knowledge of transportation systems, and technologies, within the 
overall framework of the Secretary's RD&T priorities and the 
Department's RD&T agenda.
    DOT's RD&T planning process includes three elements: multiyear 
strategic planning, annual program planning, and budget and performance 
planning. This process was described in Research Activities of the 
Department of Transportation: A Report to Congress, dated March 2005.

                            SAFETY WORKFORCE

    Question. In 1996, the FAA significantly increased the number of 
aviation safety inspectors in light of the 90-Day Safety Review that 
was conducted in the aftermath of the ValuJet crash in Florida. 
Unfortunately, the number of inspectors has been consistently below the 
standard of 3,297 that was set in that review. In fact, Mr. Secretary, 
I believe the National Civil Aviation Review Commission that you 
chaired called for even higher inspector levels. I understand that the 
FAA may lose as many as 250 inspectors this year through attrition and 
that the agency has no intention to back-fill for these positions. This 
greatly concerns me.
    Why aren't you filling vacancies for these critical safety 
positions?
    Answer. During fiscal year 2005, the FAA has been forced to reduce 
staffing, including our Flight Standards safety inspector workforce 
staffing. The reductions will be through attrition and will include 
both inspector and non-inspector positions. Since all reductions will 
be made solely through attrition, we cannot precisely predict what will 
occur in the safety inspector workforce and what will occur in the 
support workforce. In regards to reduction in the safety inspector 
workforce, we will make every effort to fill highly critical safety 
positions--such as principal inspectors assigned to major airlines--if 
such positions become vacant. Additionally, the fiscal year 2006 budget 
includes an increase of 97 safety and inspection engineers.
    Question. Wouldn't you agree that we shouldn't be reducing the 
number of inspectors in an era when a number of airlines are struggling 
financially and outsourcing an increasing portion of their maintenance 
work?
    Answer. The following steps are being taken to ensure that the 
cutbacks in the number of inspectors don't undermine the efficiency, 
competitiveness, and safety of the U.S. aviation industry.
  --Safety will always come first, and the FAA will not reduce its 
        oversight of the air carriers. Instead, the agency will reduce 
        its ability to certify new operators, repair stations and 
        aircraft components, so inspectors can focus on safety 
        oversight rather than new certifications.
  --The FAA will ensure that air carriers and air agencies will meet 
        basic standards through a system safety approach. This includes 
        analyzing data gathered through targeted inspections, focusing 
        surveillance on high-risk areas and where appropriate, revising 
        or developing policy and guidance materials.
  --The FAA will delay or defer some new certification activities 
        related to growth of existing operators, or applications for 
        new operators or products in order to absorb these reductions 
        without resorting to cuts in safety oversight.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                                 AMTRAK

    Question. Why did the administration only include a fraction of the 
funds Amtrak needs in the fiscal year 2006 budget when this level of 
funding will send the railroad into insolvency?
    Answer. Since 2003, the administration has unsuccessfully sought to 
engage the Congress in a discussion about the perilous condition of 
intercity passenger rail service and the need to reform how this form 
of transportation is provided. The budget request was intended as a 
``wake-up'' call that intercity passenger rail service as presently 
provided cannot be sustained, not just over the long-term, but in the 
short-term as well. Without meaningful reform legislation by the 
Congress and the administration, reform will come through the 
bankruptcy courts. That is a means of reform that the Department would 
prefer to avoid, but, unfortunately, cannot be ruled out.
    Question. Does the administration support reauthorization of 
Amtrak? Or would the administration rather break the intercity 
passenger railroad up and privatize operations?
     Answer. The administration supports authorization of a new 
approach to providing intercity passenger rail service that embodies 
five principles of reform: create a system driven by sound economics; 
require that Amtrak transition to a pure operating company; introduce 
carefully managed competition to provide higher quality rail services 
at reasonable prices; establish a long-term partnership between States 
and the Federal Government to support intercity passenger rail service; 
and, create an effective public partnership, after a reasonable 
transition, to manage the assets of the Northeast Corridor. While the 
administration's vision would encourage competition for contracts from 
States to provide specific services, that vision is not based upon 
privatization of operations.
    The word ``privatization'' has been used too loosely in this debate 
to imply that the administration approach would remove government 
funding and involvement in the intercity passenger rail system. This is 
a misrepresentation. Regarding train operations, the administration's 
proposal is to allow States to compete services among qualified 
vendors, including potentially the existing Amtrak organization, 
private companies, or government transportation entities. States would 
spend their public funds on this function, similar to how they solicit 
contracts to private companies to build and maintain publicly-owned 
roads and bridges. This element of competition is intended to help 
control costs and to encourage the development of innovative services 
that meet a State's and, therefore, the particular transportation needs 
of the public. Similarly, for capital projects, the administration plan 
would allow States to conduct competitions taking bids from a variety 
of contractors. Like other Federal transportation programs, the Federal 
Government would make matching grants to States for the capital 
expenses. Ultimately, it is the States and interstate compacts that 
would oversee, manage, and help fund intercity passenger rail services, 
with the private sector potentially performing these functions under 
contract.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

             ESSENTIAL AIR SERVICE COST-SHARING: BACKGROUND

    Question. I was also disappointed that the President seeks to 
require all communities receiving EAS funds to provide non-Federal 
matching funds. Communities in North Dakota that participate in EAS, 
such as Devils Lake, Jamestown and Dickinson-Williston, are more than 
210 highway miles from a medium or large hub airport, and will have to 
provide 10 percent. This is patently unfair and goes against the 
purpose of the EAS program to promote and protect air service to rural 
areas, and I will fight hard to prevent the President's plan from 
taking effect.
    Given that Congress explicitly rejected such a harsh cost-sharing 
requirement in the FAA reauthorization process, why would the 
administration propose it now after the reauthorization bill has 
passed? Isn't this patently unfair to rural America?
    Answer. Since deregulation of the airline industry, the Essential 
Air Service (EAS) program has gone without any fundamental change 
despite the major changes in the airline industry. The administration 
still believes that significant reform of EAS is necessary to bring the 
program into the 21st Century.
    With respect to the cost-sharing aspect of the administration's 
reform proposal, local contributions could come from many sources, 
including local businesses, local governments, or the State.
    Most Federal programs of this kind require some type of local 
contribution, and the EAS program has operated for 27 years without 
communities being required to make any contribution. The Small 
Community Air Service Development Program has shown us that small 
communities are willing and able to contribute funds for improved air 
service.
    For too long, many communities--there are a few exceptions--have 
taken air service for granted as an entitlement and done little or 
nothing to help make the service successful. Requiring a modest 
contribution should energize civic officials and business leaders at 
the local and State levels to encourage use of the service, and as 
stakeholders in their service, the communities will become key 
architects in designing their specific transportation package.

                                 AMTRAK

    Question. I am very disappointed that Amtrak funding was 
essentially eliminated in the President's budget, including only $360 
million to allow the STB to support commuter service if Amtrak should 
terminate its commuter services in the absence of subsidies. I am 
particularly concerned about the impact of any cuts to Amtrak on long 
distance trains, such as the Empire Builder.
    Does the administration support intercity passenger rail? Does the 
administration have a plan that would continue long-distance Amtrak 
trains?
    Answer. The administration does support intercity passenger rail 
service where such service can be based upon sound economics. The 
administration's legislative proposal, the Passenger Rail Investment 
Reform Act, helps improve the economics of intercity passenger rail by 
providing for a Federal/State capital investment partnership, limited 
competition to assure that the highest quality services are provided at 
the best cost, and a phase out of Federal operating subsidies to allow 
sufficient time for these initiatives to take hold. The Passenger Rail 
Investment Reform Act would continue intercity passenger rail services 
that can meet their operating expenses or that are viewed as important 
enough that a State or group of States will provide any needed 
operating subsidy.

                              QUIET ZONES

    Question. The Federal Railroad Administration was directed to do a 
rulemaking in 1994 on locomotive horns, but still has not issued a 
final rule. The FRA has announced that interim final rule will take 
effect April 1, 2005 (this was delayed from December, 18, 2004).
    Will the interim final rule indeed come out on April 1, and will 
that be considered a final rule, or might it be changed again? We have 
communities that are relying on final rulings from the FRA on this 
issue so they can move ahead with quiet zone planning.
    Answer. The Federal Railroad Administration's final rule on ``Use 
of Locomotive Horns at Highway-Rail Grade Crossings'' was published in 
the Federal Register on April 27, 2005.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin

                      GASOHOL CONSUMPTION IMPACTS

    Question. Many years ago the country adopted a national policy 
promoting the use of alternative fuels and our energy independence. The 
production and consumption of gasohol supported that national policy. 
However, support of that policy and the consumption of gasohol had a 
direct negative impact on the revenues attributed to the Highway 
Account of the Highway Trust Fund and a direct negative impact on the 
level of highway investment possible. Fortunately, Congress eliminated 
this impact last year. Producers of ethanol continue to receive an 
incentive--now through tax credits, and the Highway Account of the 
Highway Trust Fund is receiving the same revenues whether our vehicles 
are consuming gasohol or gasoline. These additional revenues are a 
welcome addition to the Trust Fund as we work to increase our much 
needed highway investments.
    As of January 1, 2005 the Highway Account receives full revenue 
credit for gasohol consumption, and it should be possible for FHWA to 
revise the estimated State-by-State trust fund contributions.
    When will FHWA revise its estimate of the trust fund contributions 
by State to reflect the most current information and use that 
information in the distribution of funds? And will those adjustments be 
done in time so that the revised analysis will be used for this fiscal 
year's allocations?
    Answer. Pursuant to current law, FHWA uses the latest available 
data on contributions to the Highway Account of the Highway Trust Fund 
when apportioning funds to States. On October 1 of each fiscal year, 
the date that funds are to be apportioned, the latest available 
contributions data are for the fiscal year 2 years prior. As might be 
expected, data for the fiscal year that ended just 1 day earlier are 
not available at that time. Thus, fiscal year 2005 apportionment 
formulas that use Highway Account contributions as a factor, would use 
fiscal year 2003 contributions as the basis for apportionment.

                    TRANSPORTATION INVESTMENT LEVELS

    Question. By virtually all measures, this country continues to 
under invest in our highway infrastructure as unfunded needs continue 
to grow. The Federal motor fuel user fee, accounts for over 90 percent 
of the Highway Trust Fund revenues. However, the buying power of the 
current motor fuel user fee rate has declined by over 21 percent since 
1994.
    What steps would the administration take to increase the level of 
revenue needed to keep up with inflation and also to address the future 
economic costs of underinvestment in our surface transportation 
network?
    Answer. The administration will continue to work with our State and 
local partners to advance best practices in the management of our 
surface transportation assets, so that the resources available can be 
utilized in a more cost-effective manner. Public-private partnerships 
and other innovative financing mechanisms the administration has 
encouraged represent an opportunity to leverage our public 
infrastructure investment without placing an excessive burden on 
taxpayers.

              AIRPORT FUNDING--AIRPORT IMPROVEMENT PROGRAM

    Question. Smaller communities are relying more and more on the 
availability of an airport capable of handling corporate jets to 
attract business. For these communities the Airport Improvement Program 
provides crucial funding to invest in airport improvements and 
expansions without which the area's opportunity to attract and even to 
keep businesses will be sharply reduced. Many States have also 
established State programs to complement the Federal funding. Many 
small and medium hub airports are also seeing significant construction 
needs.
    I was very disappointed to see that the administration wants to 
reduce funding from $3.5 billion to $3 billion, at a time when we 
should be encouraging the expansion of job opportunities in communities 
and smaller urban areas in rural America.
    Aside from the cuts in Amtrak, the administration appears to have 
singled out this program for a large cut.
    For Carroll, a small town airport in Iowa, the Kansas Region is 
moving to stop a runway expansion project in midstream after local 
funds had been spent, an unusual action. What is the Department going 
to do to provide adequate improvements for general aviation airports if 
funding is reduced?
    Answer. Carroll County requested Airport Improvement Program (AIP) 
funding to re-align, re-grade and pave its crosswind runway. In fiscal 
year 2004, the airport used $224,200 of non-primary entitlements to 
realign and re-grade the crosswind runway. The cost to pave the runway 
is $990,000 and paving the access taxiway is $274,500. Paving the 
crosswind runway is a low priority project and will not compete well 
against higher-priority primary runway projects.
    FAA has offered to seed Carroll's crosswind runway and restore it 
as a turf runway. This option provides Carroll County with an improved, 
usable runway, which is consistent with FAA policy. Another option 
would be to use its non-primary entitlements to pave the runway in 
phases that establish usable lengths. There are other funding options 
that are available to the airport, including using state apportionment 
funds or approaching FAA with an innovative financing plan.
    The FAA knew that with the reduction in AIP, it was important to 
preserve the basic structure of entitlement formulas developed in the 
Wendell H. Ford Aviation Investment and Reform Act for the 21st Century 
(AIR-21) and continued under Vision 100--Century of Aviation 
Reauthorization Act to ensure a stable funding stream from entitlement 
funds. The FAA's proposal includes a request for Congress to enact 
special one-time legislation that would permit distribution of AIP 
funds using the ``Special Rules'' contained in Section 47114 of title 
49, United States Code. This section provides for doubling entitlements 
and for continued entitlement funding for non-primary airports. This 
would be accomplished by incorporating specific statutory language in 
the fiscal year 2006 appropriations bill directing the use of the 
``Special Rules'' notwithstanding a level of AIP funding below $3.2 
billion. These entitlement funds, combined with discretionary funds 
when needed for high priority projects, will ensure continued funding 
for general aviation improvement projects.
    Question. What impact does the Department see for a reduction in 
entitlement funds for small and non-hub airports?
    Answer. With the reduction in AIP, it was important to preserve the 
basic structure of entitlement formulas developed in AIR-21 and 
continued under Vision 100 to ensure a stable funding stream from 
entitlement funds. Airports and the FAA have developed long-range 
investment plans based on these rules. The disruption to long-range 
investment plans could seriously interfere with the development of the 
national airport system and strain financial resources of many small 
airports that rely heavily on AIP grants to meet their needs.
    The President's fiscal year 2006 budget request includes special 
one-time legislation that would permit distribution of AIP funds using 
the ``Special Rules'' contained in Section 47114 of title 49, United 
States Code. This section provides for doubling entitlements and for 
continued entitlement funding for non-primary airports. This would be 
accomplished by directing the use of the ``Special Rules'' 
notwithstanding a level of AIP funding below $3.2 billion.
    Using this approach, airports will experience a very modest 
reduction in entitlement amounts. However, discretionary funding will 
mitigate this reduction, which will be used to: (1) meet the FAA's 
Letter of Intent (LOI) commitments; (2) entertain new LOI candidates; 
and (3) fund needed safety, security, and related projects.

                 TRANSIT BUS AND BUS FACILITIES FUNDING

    Question. The administration's budget combines the Fixed Guideway 
modernization, Urbanized and non-urbanized formula programs, the Bus 
and Bus Facilities capital program, Planning and Research and a number 
of other programs, some of which are new programs, into a Formula 
Grants and Research Program. While most of the current activities 
retain some identity and specific funding within the Formula Grants and 
Research Program, it appears that what has been lost in the new program 
is the bus and bus facilities program.
    What is the administration's position on the importance of a 
program to assist States and local agencies maintain and improve their 
bus fleet?
     Answer. The administration agrees that it is important to assist 
States and local agencies maintain and improve the condition of their 
bus fleets, since 95 percent of the Nation's communities are served 
only by bus operations. We believe that is best done through including 
the funds in the formula programs rather than through a discretionary 
program. Formula funding would provide the funds to more communities 
nationwide and funding would be more predictable and stable. This would 
allow State and local agencies the means to better plan to meet their 
bus capital replacement and improvement needs. Because the formula 
funds are available for obligation for 3 (nonurbanized formula) or 4 
(urbanized formula) years, grantees can accumulate funds to support 
major bus procurements or facilities projects. The transfer provisions 
proposed will allow flexibility to trade funds among programs, 
providing grantees support for one-time projects. FTA grantees can also 
take advantage of flexible funding provisions to use highway funds for 
transit capital projects.

                      INTERCITY BUS TRANSPORTATION

    Question. Iowa has an excellent system of regional transit agencies 
that provide transit service in all counties of the State. However, 
while it is important to provide transit service to citizens within our 
urban areas, it is also important to provide options for service 
between our urban centers. People who do not have access to the 
personal auto for the trips of between 100 and 200 miles must often 
rely on the private sector through our inter-city bus carriers.
    As the need to provide longer distance service to our rural non-
drivers, the elderly and disabled increases; what do you see as the 
Federal role or responsibility?
     Answer. The private sector has an important role to play in 
maintaining intercity service. Since the Intermodal Surface 
Transportation Efficiency Act of 1991, however, Federal transit 
legislation has recognized the need for Federal financial support to 
sustain some of the most vulnerable service. The nonurban formula 
program under Section 5311(f) requires States to use 15 percent of 
their annual apportionment under the nonurbanized formula program to 
support intercity bus service, unless the Governor certifies that the 
rural intercity bus needs of the State are adequately met. In a recent 
``Dear Colleague'' letter, FTA encouraged the States to take full 
advantage of this provision to minimize the impact of recent and 
ongoing service reductions by the largest national intercity bus 
carrier. The States affected to date have worked successfully with 
regional intercity bus operators and with rural transit systems to 
maintain many of the discontinued routes.
    We agree with your assessment of the importance of rural transit 
and intercity connections. The administration supported significant 
increases in rural transit funding in the Safe, Accountable, Flexible 
and Efficient Transportation Equity Act of 2003 (SAFETEA), and proposed 
to strengthen the intercity bus provision by requiring consultation 
with the private providers before certifying that needs are adequately 
met.

                       RURAL TRANSPORTATION NEEDS

    Question. As the gap between the funding available for 
transportation investments and the national transportation needs 
continues to expand, there is the temptation to redistribute or 
redirect our investments and focus on the large urban centers. Whether 
it is highway, transit, aviation or rail passenger funding, the 
commitment to a national transportation system must be maintained.
    Can we have your assurance that this country will retain a national 
transportation system--providing service to rural America as well as 
urban centers?
    Answer. The Department is deeply committed to ensuring mobility in 
both rural and urban America, and we look to all modes to play a 
continuing role in meeting traveler needs.
    Regarding the availability of long-distance service options, you 
may be aware that the Department is presently preparing a report to 
Congress that addresses Greyhound's recent service cutbacks, many of 
which have occurred in rural areas. Our preliminary findings are 
encouraging. First, many of the affected communities had few or no 
passengers riding Greyhound's buses during the past year; service 
cutbacks in those areas pose little or no impact. Second, where some 
passenger base (ridership) still exists but Greyhound has nonetheless 
found that service cutbacks are critical to sustaining its long-term 
operating strategy, other carriers have stepped in to provide service. 
The other carriers have lower operating costs and may have different 
route structures that allow them to provide the service more 
profitably. Similarly, some of these replacement carriers are in a 
better position to take advantage of available Federal capital and 
operating subsidies that help sustain service where it might otherwise 
be unprofitable even for them to operate. Finally, in addition to 
carriers stepping up to offer services, many affected States have been 
making greater use of available program support, notably FTA's 5311(f) 
program, and working more closely with alternative carriers to sustain 
service. The combination of carrier and State response is helping to 
mitigate effects of Greyhound's cutbacks--where there have been impacts 
at all. Many of these same resources are available to provide intercity 
travel wherever Amtrak cutbacks might occur.
    The administration's SAFETEA proposals also increase long-distance 
travel options, especially for those dependent upon access to publicly 
available transportation, through expanded support for intercity bus 
service. SAFETEA's measures include funding of intermodal terminals 
used by intercity bus carriers; increasing Section 5311(f)'s funding 
for rural area intercity bus service and strengthening the Section's 
provisions for State and carrier cooperation; ensuring intercity bus 
access to publicly funded intermodal passenger facilities; and 
continued funding of lift equipment that helps carriers meet the 
Americans with Disabilities Act accessibility requirements. All of 
these measures seek improved access to the Nation's intercity travel 
network, and we are very hopeful that emerging reauthorization 
legislation preserves support for these measures.
    The administration's passenger rail proposal, the Passenger Rail 
Investment Reform Act, includes a new Federal-State partnership to fund 
capital improvements, much like the successful programs relied on in 
other modes of transportation, especially the Federal Transit 
Administration's (FTA) Section 5309 New Starts Program. The Federal 
Government will offer 50-50 matching grants to States for development 
of infrastructure projects that improve passenger rail service. The 
matching grants will provide an incentive for States to make capital 
investments that support high quality, integrated regional rail 
services.
    As in the Section 5309 New Starts Program, regional, State or local 
authorities will be empowered to make decisions about rail passenger 
service, planning where it is and what best meets their transportation 
needs; they will also be in a position as well to ensure rail operators 
are providing a reliable, efficient and cost effective service. State 
and local governments are better situated to specify the service to be 
run, to monitor performance, and to control operating costs.
    The most recent legislation to reauthorize Federal aviation 
programs, Vision 100 (Public Law 108-176), established an Alternate 
Essential Air Service Pilot Program and a Community Flexibility Pilot 
Program. By creating these pilot programs, Congress endorsed the idea 
that flexibility, needs assessment, and cost-effectiveness have roles 
to play in connecting communities to the air transportation system. For 
example, providing for on-demand surface transportation to another 
airport and promoting air taxi and charters in lieu of higher cost 
scheduled service were two provisions aimed at achieving rural area 
access to the Nation's air network more cost-effectively. This 
adherence to flexibility, needs assessment, and cost-effectiveness 
should contribute to the long-term assurance of mobility for the full 
spectrum of America's various transportation user groups.

                          SUBCOMMITTEE RECESS

    Senator Bond. The hearing is recessed.
    [Whereupon, at 11:32 a.m., Tuesday, March 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
